No. 20In the

Supreme Court of the United States
CRAIG GENESS,
Petitioner,
v.
COMMONWEALTH OF
PENNSYLVANIA, ADMINISTRATIVE
OFFICE OF PENNSYLVANIA COURTS,
Respondents.

On Petition for a Writ of Certiorari to the United
States Circuit Court of A ppeals for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI
Joel S. Sansone
Counsel of Record
Massimo A. Terzigni
Elizabeth A. Tuttle
Law Offices of Joel Sansone
Two Gateway Center, Suite 1290
603 Stanwix Street
Pittsburgh, Pennsylvania 15222
(412) 281-9194
jsansone@joelsansonelaw.com
Counsel for Petitioner
302051

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED FOR REVIEW
Whether the Third Circuit erred in granting the
collateral appeal of Defendant, Administrative Offices
of Pennsylvania Courts (hereinafter “AOPC”), where
the record facts support a valid cause of action against
AOPC, and where the Circuit’s ruling grants sovereign
immunity to AOPC, an agency of the Commonwealth,
where the record evidence demonstrates that the statutory
and constitutional violations suffered by the Petitioner
were the direct result of the failure of AOPC to perform
its duty to protect the Petitioner from those violations,
which obligations were placed upon the Commonwealth,
and therefore AOPC, by the United States Congress
with the passage of the Americans with Disabilities Act
(hereinafter “ADA”)?

ii
RELATED PROCEEDINGS
• Geness v. Cox, No. 2:16-cv-00876, United States
District Court for the Western District of
Pennsylvania. Judgment entered May 1, 2017.
• Geness v. Cox, No. 17-2073, U.S. Court of Appeals
for the Third Circuit. Judgment entered Aug. 28,
2018.
• Geness v. Pennsylvania, No. 2:16-cv-00876, United
States District Court for the Western District of
Pennsylvania. Judgment entered May 28, 2019.
• Geness v. Admin. Office of Pa. Courts, No. 192253, U.S. Court of Appeals for the Third Circuit.
Judgment entered Sept. 8, 2020.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW . . . . . . . . . . i
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . v
PETITION FOR WRIT OF CERTIORARI . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE WRIT . . . . . . . . . . 7
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iv
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR T H E T HIRD CIRCU I T, FILED
SEPTEMBER 8, 2020  . . . . . . . . . . . . . . . . . . . . . . . . 1a
A P P E N DI X B — O P I N ION O F T H E
UNITED STATES DISTRICT COURT
FOR T H E W EST ERN DIST RICT OF
PENNSYLVANIA . . . . . . . . . . . . . . . . . . . . . . . . . . . 36a
A P P E N DI X C — O R D E R D E N Y I N G
REHEARING OF THE UNITED STATES
COURT OF APPEALS FOR THE THIRD
CIRCUIT, DATED OCTOBER 29, 2020 . . . . . . . . 53a

v
TABLE OF CITED AUTHORITIES
Page
CASES:
Commonwealth v. Kerrigan,
271 Pa. Super. Ct. 404 (1979) . . . . . . . . . . . . . . . . . . . 14
Commonwealth v. Young,
Nos. MD-938-11, T 051289-0, 2012 Pa. Dist.
& Cnty. Dec. LEXIS 126 (C.P. May 4, 2012) . . . . . . 14
Furgess v. Pa. Dep’t of Corr.,
933 F.3d 285 (3d Cir. 2019)  . . . . . . . . . . . . . . . . . 15
Geness v. Admin. Office of Pa. Courts,
974 F.3d 263 (3d Cir. 2020) . . . . . . . . . . . . . . . . . passim
Geness v. Cox,
902 F.3d 344 (3d Cir. 2018) . . . . . . . . . . . . . . . . . passim
Geness v. Pennsylvania,
388 F. Supp. 3d 530 (W.D. Pa. 2019) . . . . . . . . . .  10, 11
In re City of Phila. Litig.,
158 F.3d 711, 717 (3d Cir. 1998) . . . . . . . . . . . . . . . . . . 6
Tennessee v. Lane,
541 U.S. 509 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Georgia,
546 U.S.151 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . .  9, 14

vi
Cited Authorities
Page
STATUTES AND OTHER AUTHORITIES:
U.S. Const. Amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 12132  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 7
Pa. R.J.A. No. 505 (1)(6) . . . . . . . . . . . . . . . . . . . . . . . . 8, 15
Pa. R.J.A. 505(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Pa. R.J.A. 505(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
50 Pa. C.S. § 7403(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 13
American With Disabilities Act, 1990; https://
www.c-span.org/video/?c4763579/user-clippresident-george-h-w-bush-signs-americandisabilities-act-1990; (0:30) . . . . . . . . . . . . . . . . . . . . . . 6

1
PETITION FOR WRIT OF CERTIORARI
Craig Geness, an individual, by and through the Law
Offices of Joel Sansone, Joel S. Sansone, Esquire, Massimo
A. Terzigni, Esquire, and Elizabeth A. Tuttle, Esquire,
respectfully petitions this Honorable Court for a writ of
certiorari to review the judgment of the Third Circuit
Court of Appeals.
OPINIONS BELOW
The decision by the Third Circuit Court of Appeals
granting AOPC’s collateral appeal is reported as Geness
v. Admin. Office of Pa. Courts, 974 F.3d 263 (3d Cir.
2020). The opinion and dissent are attached at Appendix
A, pp. 1a-34a. Preceding that decision, the district court
denied AOPC’s motion to dismiss pursuant to Rule 12(b)
(6) of the Federal Rules of Civil Procedure. That opinion
is unreported and is attached at Appendix B, pp. 35a-52a.
JURISDICTION
The Third Circuit denied Mr. Geness’ Petition for
Rehearing on October 29, 2020. See Appendix C, pp.
53a-54a. This petition is timely filed pursuant to Supreme
Court Rule 13.1. and Order 589, dated March 19, 2020. This
Honorable Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution, Amendment XIV:
All persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens of the

2
United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.
Americans with Disabilities Act, 42 U.S.C. § 12132:
Subject to the provisions of this title, no qualified
individual with a disability shall, by reason of such
disability, be excluded from participation in or be denied
the benefits of the services, programs, or activities of a
public entity, or be subjected to discrimination by any
such entity.
Pennsylvania Mental Health Procedures Act, 50 Pa.
C.S. Section 7403(d):
Whenever a person who has been charged with a crime
has been determined to be incompetent to proceed, he shall
not for that reason alone be denied pretrial release. Nor
shall he in any event be detained on the criminal charge
longer than the reasonable period of time necessary to
determine whether there is a substantial probability that
he will attain that capacity in the foreseeable future. If
the court determines there is no such probability, it shall
discharge the person. Otherwise, he may continue to be
criminally detained so long as such probability exists but
in no event longer than the period of time specified in
subsection (f).

3
STATEMENT OF THE CASE
To say that Mr. Geness suffered a grave
injustice at the hands of the system for justice
is inadequate. There are no words.1
Craig Geness has a functional Intelligence Quotient
of 54. He was held in Fayette County Jail for five years,
with almost five additional years in state custody, shackled
with an ankle bracelet, on a general homicide charge.
Mr. Geness was deemed mentally incompetent to stand
trial very early in the process. 2 He was never brought to
trial in all that time, and none of the four habeas corpus
motions brought on his behalf were ever heard or ruled
upon. The charges against Mr. Geness were dismissed
with an Order of nolle prosequi, based upon the admission
by the District Attorney, after a decade, that there was
insufficient evidence to convict Mr. Geness of this charge. 3
1. Geness v. Admin. Office of Pa. Courts., 974 F.3d 263, 279
(3d Cir. 2020) (Ambro, J. dissenting) (Hereinafter, “Geness II”);
Appendix A, p. 30a.
2. Initially, within months of his arrest, Mr. Geness was deemed
incompetent and unlikely to regain competency at any future time by
a physician employed by the state mental hospital. Thereafter, on two
separate additional occasions during Mr. Geness’ incarceration and
detention, two other physicians employed by the state concurred in
that original conclusion. No evidence was ever offered to contradict
those three separate expert conclusions. Geness II, 974 F.3d at 26768; Appendix A, pp. 2a-5a.
3. Mr. Geness was, and remains, innocent of this charge. The
only evidence of his guilt was a “confession” from Mr. Geness (without
the benefit of counsel) obtained by a lone policeman who forced this
“confession” from Mr. Geness after he had been involuntarily committed
to a mental institution by the owner of the personal care home where
Mr. Geness lived.

4
In each month of Mr. Geness’ decade long incarceration
and shackled detention in various state facilities, his case
was brought before the Common Pleas Court of Fayette
County, Pennsylvania, during the monthly call of the
criminal trial list. On each occasion, the presiding Judge
continued the matter for trial, despite knowledge of Mr.
Geness’ incompetency and repeated outcries from local
officials demanding that Mr. Geness’ case be resolved.
The system repeatedly failed Mr. Geness.
When this matter was initially before the Third
Circuit Court of Appeals, the Court recognized this
systemic failure:
…[M]ultipoint failures in the criminal justice
system have brought us to this juncture.
Those failures point out the essential role
of each player in that system—whether law
enforcement officer, prison official, mental
health professional, defense counsel, prosecutor,
or judge—and the devastating consequences
that can follow when one or more of them fails
to diligently safeguard the civil rights with
which they are entrusted. With the complexities
The victim was a resident who fell from the porch of that
home, when he should have been supervised by that owner. Before
dying, the man admitted that he fell, his wife said he fell, and the
first responders both reported a fall.
Medical evidence established that Mr. Geness’ condition
makes him highly suggestible. When asked by pro bono defense
counsel why he confessed, Mr. Geness explained that the policeman
told him that he had committed the crime. Geness v. Cox, 902 F.3d
344, 349-52 (3d Cir. 2018) (Hereinafter, “Geness I”).

5
at the intersection of the criminal justice
and mental health systems, those risks are
only compounded and require vigilance at a
systemic level.
Geness I, 902 F.3d at 365.
The Third Circuit went on to find that “taking
all pleaded allegations as true and viewing them in a
light most favorable to the plaintiff as we must when
evaluating futility, Geness has stated cognizable [ADA]
and due process claims” against the Commonwealth of
Pennsylvania. Id. at 361.
Thereafter, Mr. Geness pled that AOPC administers
the Pennsylvania Judicial System and is responsible for
the prompt and proper disposition of all business of the
courts of the Commonwealth of Pennsylvania.4 Among
the duties and responsibilities of the AOPC is insuring
accessible and safe courts for all citizens. The duties of
the AOPC also include insuring that the courts of the
Commonwealth comply with Title II of the ADA. Mr.
Geness pled that the AOPC failed in executing its duties
with respect to his prolonged, inexcusable detention.
In Geness II, which decided a collateral appeal by the
AOPC to the Third Circuit claiming sovereign immunity,
the majority departed from Geness I and the applicable
pleading standard, and required that Mr. Geness plead
with a high degree of specificity the actions that the AOPC
should have taken to assist Mr. Geness, rather than
4. It is undisputed that AOPC is an “arm of the Commonwealth.”
Geness II, 974 F.3d at 269 n.5; Appendix A, p. 17a.

6
focusing on what it did not do. Geness II, 974 F.3d at 276;
Appendix A, p. 24a. Thus, the Circuit granted sovereign
immunity to AOPC because it ruled that Mr. Geness could
not establish causation at the pleading stage between the
AOPC’s failure to do its duty, and the outcome that would
have occurred had the Pennsylvania Supreme Court been
notified of this horrendous failure of the criminal justice
system.
Despite this ruling, it will be remembered that, at
the motion to dismiss stage, the Plaintiff is entitled to the
fair inferences that grow out of the record. Geness II, 974
F.3d at 269; Appendix A, pp. 7a-8a. Moreover, Geness I
and Geness II do not align, as the majority’s expectations,
or lack thereof, regarding the AOPC in Geness II are far
from the systemic vigilance and diligent safeguarding of
civil rights previously contemplated by the Third Circuit
when addressing the intermixing of the mental health
and criminal justice systems presented in this matter.
See Geness I, 902 F.3d at 365. 5
In 1990, when President George H.W. Bush signed
the ADA, he said, “[l]et the shameful wall of exclusion
finally come tumbling down.” 6 Thirty years later, in
5. “The law of the case doctrine instructs that ‘one panel of an
appellate court generally will not reconsider questions that another
panel has decided on a prior appeal in the same case.’ In re City of
Phila. Litig., 158 F.3d 711, 717 (3d Cir. 1998). We are thus bound by
our prior opinion to the extent it bears upon the matter before us.”
Geness II, 974 F.3d at 272, n.7; Appendix A, p. 14a.
6. President George H. W. Bush Signs American With
Disabilities Act, 1990; https://www.c-span.org/video/?c4763579/
user-clip-president-george-h-w-bush-signs-american-disabilitiesact-1990; (0:30).

7
Geness II, the Third Circuit granted AOPC the authority
to take a laissez faire approach, not just to the rights
of Mr. Geness, but towards all disabled individuals who
meet the criminal justice system. Effectively, AOPC, a
state agency, can say that they will expedite litigation,
but it does not have to; it can say that it is committed to
ADA rights and accessibility; but it is not required to
do anything in that regard. If untouched, the Circuit’s
decision is another brick in the wall of exclusion that this
country sought to tear down thirty years ago, with many
more to come. For the reasons that follow, Mr. Geness
respectfully requests that this Honorable Court grant
Petitioner’s writ of certiorari.
REASONS FOR GRANTING THE WRIT
With the passage of the ADA in 1990, and specifically
in Title II, Congress placed the duty on every state
and its agencies to prevent discrimination against
disabled persons. The ADA specifically provided a
prohibition against disabled people being “excluded from
participation in or be denied the benefits of the services,
programs, or activities of a public entity, or be subjected
to discrimination by any such entity.” 42 U.S.C. § 12132.
Mr. Geness pled that, as part of its effort to fulfill its
responsibility to ensure the Commonwealth’s compliance
with the ADA, AOPC makes regular inquiries of the
ADA coordinators for each county with regard to cases
involving criminal defendants who are pretrial detainees
whose cases have not been called to trial in a timely
fashion, according to Pennsylvania law. Regarding Mr.
Geness’ case, the AOPC made repeated and direct contact
with the Fayette County Court Administrator to inquire
about Mr. Geness’ case and the reasons for his extended

8
incarceration without trial. Notwithstanding that those
inquiries were made by AOPC, neither AOPC, nor any
other agent of AOPC, including AOPC’s local ADA
coordinator in Fayette County, took any action designed
to provide Mr. Geness with his right to be brought to trial
on the charges that he faced. During the period of Mr.
Geness’ incarceration from in or about November, 2006,
through in or about November, 2015, the Fayette County
Court Administrator received from the Fayette County
Prison a daily list of inmates incarcerated in the Fayette
County Prison. This list included various information
about each incarcerated individual, including the date that
the individual was incarcerated, as well as the minimum
and maximum incarceration dates for each prisoner. On
each of the daily lists sent from the prison to the Court
Administrator, Mr. Geness appeared together with
information about his incarceration, as described above.
Of particular importance is the specifically stated
duty of the AOPC to report to the Supreme Court on
the efficiency of the court system, and to examine the
dockets and “make recommendations [to the Pennsylvania
Supreme Court] for the expedition of litigation.” Pa. R.J.A.
No. 505 (1)(6).7 Mr. Geness further pled that the AOPC
abandoned these duties in this regard.
7. The Administrative Office shall have the power and its
duties shall be:
(1) To review the operation and efficiency of the system and
of all offices related to and serving the system and, when
necessary, to report to the Supreme Court or the Judicial
Council with respect thereto….
(6) To examine the state of the dockets and practices and
procedures of the courts and of the magisterial district judges
and make recommendations for the expedition of litigation.

9
It was known that Mr. Geness was not mentally
competent to stand trial within the first year of his
incarceration. By the time that he was unshackled and set
free, it had been known for over nine years that Mr. Geness
would never be competent to stand trial. Had the AOPC
done its job, and had the head of the AOPC simply walked
down the hall to the office of the Chief Justice, Mr. Geness
contends that the Pennsylvania Supreme Court could have,
and would have, invoked the mandatory language of the
Mental Health Procedures Act to free Mr. Geness.8 Given
the belated admission by the District Attorney that the
Commonwealth did not have sufficient evidence to convict
Mr. Geness, a demand by the defense for an Order of nolle
prosequi would have been granted with Mr. Geness having
been freed from captivity.9 In light of the foregoing, Mr.
Geness adequately pled that the AOPC was a cog in the
system that failed him, as referenced by the Court in
Geness I.
The Trial Court agreed. Relying on this Honorable
Court’s holdings in United States v. Georgia, 546 U.S.151,159
(2006), and Tennessee v. Lane, 541 U.S. 509, 533-34 (2004),
8. See footnote 13, infra, and accompanying text.
9. With respect to the Pennsylvania courts, organized under
the Pennsylvania Unified Judicial System, the administrative arm
of those courts is the AOPC. The website maintained by the AOPC
acknowledges that it has the duty of compliance with the ADA.
One specific portion of the site is dedicated to “ADA compliance.”
Within that section, the AOPC promises to insure “accessible
courts for all citizens.” The website also identifies AOPC’s duty to
make recommendations to the Pennsylvania Supreme Court, and
to ensure that “every citizen has equal access to courtrooms.” That
same website asserts that the Pennsylvania Supreme Court has the
power to take control of any case pending in the Commonwealth.

10
the Trial Court stated that Mr. Geness pled facts which
created a plausible claim against the AOPC. Those facts
included that AOPC had the express duty to (1) make regular
inquiries of each county ADA coordinator regarding criminal
trials that have not proceeded in a timely fashion, and (2)
make recommendations to the Pennsylvania Supreme Court
for the expediting of litigation. Geness v. Pennsylvania,
388 F. Supp. 3d 530, 535 (W.D. Pa. 2019); Appendix B, pp.
43a-45a.10 Recognizing that the issues described above
required factual determinations, the Trial Court concluded
that these questions “may then be left to our jury.” Id.
Pursuant to the Lane and Georgia holdings, supra,
the Trial Court further observed that Congress had
validly abrogated sovereign immunity under the ADA “for
claims brought under Title II ‘as it applies to the class of
cases implicating the fundamental right of access to the
courts.’” Geness v. Pennsylvania, 388 F. Supp. 3d at 534,
n.8; Appendix B, p. 42a. In that regard, the Trial Court held,
10. In so holding, the Trial Court relied on the duties,
responsibilities and activities imposed upon AOPC by the Pennsylvania
Rules of Judicial Administration, including specifically Pa. R.J.A.
505(1) and 505(6), which respectively require AOPC to “review the
operation and efficiency of the system … and, when necessary …
report to the Supreme Court … with respect thereto,” and “examine
the state of the dockets and … make recommendations for the
expedition of litigation.” Geness v. Pennsylvania, 388 F. Supp. 3d at
535, n.19; Appendix B, p. 44a. These rules led the Court to conclude:
Mr. Geness plausibly pleads the AOPC could have
helped him by exercising its duty to monitor the status
of dockets and make recommendations to expedite
litigation, ensure ADA compliance . . . and (report) to
the Pennsylvania Supreme Court.
Id.

11
[S]overeign immunity poses no bar to Mr.
Geness’ claim against the Commonwealth,
because “insofar as Title II creates a private
cause of action for damages against the States
for conduct that actually violates the Fourteenth
Amendment, Title II validly abrogates state
sovereign immunity.” The AOPC nonetheless
argues it is entitled to sovereign immunity even
though the Commonwealth of which it is “an
arm” is not shielded by such immunity. This
argument is unavailing.
Geness v. Pennsylvania, 388 F. Supp. 3d at 534; Appendix
B, p. 42a. AOPC subsequently filed a collateral appeal to
the Third Circuit, Geness II.
The Third Circuit in Geness II recognized the
precedential value of the Third Circuit’s ruling in Geness
I, wherein the earlier panel held that,
(A)s alleged, these multiple, protracted, and
inexcusable delays in the handling of Geness’
examinations, transfers, and (habeas corpus)
motions – resulting in nearly a decade of
imprisonment and civil commitment . . . – are more
than sufficient to state a claim under the ADA.”11
902 F.3d at 362. The Court highlighted the holding in
Geness I, that the time that Mr. Geness spent languishing
11. The Geness I Court erroneously found that Mr. Geness’
habeas corpus motions were eventually ruled upon by the Common
Pleas Court. 902 F.3d at 362. As the record demonstrates, no hearing
was ever held on any of the four habeas corpus motions filed on behalf
of Mr. Geness over the course of almost a decade. See, e.g., Geness
II, 974 F.3d at 268, n.2; Appendix A, p. 5a.

12
in prison after it was evident that he would never be
competent to stand trial far exceeded the “reasonable”
time frame for holding a mentally disabled defendant.
Geness II, 974 F.3d at 272, citing Geness I, 902 F.3d 344
at 363-64; Appendix A, pp. 13a-14a.
The Court also recognized Title II’s requirement
that disabled people be protected from discrimination in
the services, programs and activities provided by state
entities, and that such requirement is “extremely broad in
scope, and includes anything a public entity does.” Geness
II, 974 F.3d at 277; Appendix A, 25a.
Notwithstanding these findings, the Circuit granted
sovereign immunity to AOPC (not to the Commonwealth
of Pennsylvania), in part because it found that imposing
the duty on AOPC to intervene directly in the Geness
case would require that AOPC “closely monitor, deeply
evaluate and consider intervening in every criminal case
pending in the Commonwealth.” Geness II, 974 F.3d at 278;
Appendix A, p. 28a. This ruling ignores two important
points. First, the issue in this case involves not every
criminal case in the Commonwealth, but rather those
cases involving defendants found incompetent to stand
trial by reason of their disability, which undoubtedly
represents a significantly smaller subset of all cases in
Pennsylvania.
Second, AOPC apparently already has a mechanism
for monitoring cases that have languished for extended
periods of time. Mr. Geness argues that AOPC already
monitors cases for longevity, and that it should have done a
better job in insuring that the matter was brought to some
conclusion in a timely fashion. The Pennsylvania Rules of

13
Judicial Administration already provide the requirements
for AOPC action. The fact that AOPC undertook to lightly
intervene in the Geness case is an admission by AOPC
that it knew its duty in this respect. Mr. Geness argues
that AOPC should have done its job better, as so required
under the ADA.12
Furthermore, the Pennsylvania Mental Health
Procedures Act, 50 Pa. C.S. Section 7403(d), imposes the
following mandatory requirement:
Whenever a person who has been charged with
a crime has been determined to be incompetent
to proceed, he shall not … be denied pretrial
release. Nor shall he in any event be detained on
the criminal charge longer than the reasonable
12. The Circuit observed that Mr. Geness “neither identifies in
his Complaint nor argues before us what further action AOPC should
have or could have taken” to prompt action by the Fayette County
Common Pleas Court. Geness II, 974 F.3d at 276; Appendix A, p.
24a. Mr. Geness respectfully argues that the duty to ensure ADA
compliance, and to propose mechanisms to ensure that compliance,
was laid upon the states through their agencies, not upon mentally
ill criminal defendants challenging ten years of enforced detention.
Notwithstanding, Mr. Geness suggests that, during the multiple
instances where AOPC contacted the local Court Administrator
demanding explanations, it would have been the simplest solution to
insist that the Court Administrator prevail upon the President Judge
of the county to take action to move the case forward, failing which
AOPC could then take the matter up with the Chief Justice of the
Pennsylvania Supreme Court. To do so would have initiated AOPC’s
duty under the rules to “make recommendations for the expedition of
litigation.” If the local Court then failed to take action, AOPC could
have fulfilled its duty by making “a report to the Supreme Court”
regarding such failure.

14
period of time necessary to determine whether
there is a substantial probability that he will
attain that capacity in the foreseeable future.
(emphasis supplied). 13
Mr. Geness respectfully asserts that the fair inference
from the facts pled is that, upon being informed of the
ongoing miscarriage of justice to Mr. Geness, the highest
Court in Pennsylvania would have followed the mandatory
dictates of the Mental Health Procedures Act, and freed
Mr. Geness.
Nevertheless, the majority held that the allegations
against the AOPC failed to satisfy the first requirement
of Georgia, setting forth a plausible Title II claim, i.e.,
that Mr. Geness failed to plead that he was an individual
who was excluded from participation in or was denied
the benefits of the services, programs, or activities of a
public entity, or was subjected to discrimination by any
such entity by reason of his disability. Geness II, 974 F.3d
at 273-78, Appendix A, pp. 18a-29a.14
13. See, e.g., Commonwealth v. Kerrigan, 271 Pa. Super. Ct.
404 (1979) (Pa. Supreme Court Justice Nix sitting by designation);
Commonwealth v. Young, Nos. MD-938-11, T 051289-0, 2012 Pa.
Dist. & Cnty. Dec. LEXIS 126 (C.P. May 4, 2012).
14. To state a claim under Title II of the ADA, in satisfaction
of the Georgia requirement, a party must sufficiently plead that “(1)
he is a qualified individual; (2) with a disability; (3) who was excluded
from participation in or denied the benefits of the services, programs,
or activities of a public entity, or was subjected to discrimination by
any such entity; (4) by reason of his disability.” Geness II, 974 F.3d
at 273; Appendix A, 18a.

15
However, “the phrase ‘service, program, or activity’
under Title II . . . is ‘extremely broad in scope and includes
anything a public entity does.’” Furgess v. Pa. Dep’t of Corr.,
933 F.3d 285, 289 (3d Cir. 2019). Mr. Geness pled that AOPC,
an arm of the Commonwealth, administers the Pennsylvania
Judicial System and is responsible for the prompt and proper
disposition on all business of the courts of the Commonwealth
of Pennsylvania. The duties and responsibilities of the AOPC
include insuring accessible and safe courts for all citizens
and ensuring that the courts of the Commonwealth comply
with Title II of the ADA. Mr. Geness further set forth that,
despite the AOPC’s aforementioned enumerated duties and
its knowledge that Mr. Geness was languishing in custody,
neither the AOPC, nor any other agent of AOPC, including
the AOPC’s local ADA coordinator in Fayette County, took
any action designed to provide Mr. Geness with his right to
be brought to trial on the charges that he faced. In light of
those facts, the Trial Court, as well as the dissent, found that
Mr. Geness had satisfied the pleading standard.
Mr. Geness did not argue that AOPC should expand its
responsibility under the ADA. Instead, Mr. Geness merely
asked that it perform its enumerated duties, as mandated
by the ADA. These duties were pled by Mr. Geness and
confirmed through discovery. The majority’s holding in
Geness II focused on the point that AOPC cannot affect
judicial decision-making, and, therefore, it was not properly
suited to defend Mr. Geness’ ADA rights. “The AOPC is
not, and should not be, a judicial back-seat driver.”15 Geness
15. Mr. Geness respectfully argues that requiring the AOPC
to fulfill its obligations and duties under Pa. R.J.A. No. 505(1)(6) is
not in the nature of “backseat driving.” Rather, it is respectfully
urged that requiring AOPC to report this matter to the Pennsylvania
Supreme Court with a recommendation as to the expedition of this

16
II, 974 F.3d at 277; Appendix A, p. 26a. However, as the
Circuit previously found in Geness I, it was not just the
judges that were the problem in this case. It was a systemic
failure. Therefore, Mr. Geness urges this Honorable Court
to adopt the view of the well-reasoned dissent in Geness II.
Judge Ambro wrote for the dissent:
Mr. Geness clearly identifies the provisions of
Pennsylvania law that tasked the AOPC with
monitoring the criminal docket and reporting
failures directly to the Commonwealth’s
Supreme Court. And he alleges that the AOPC’s
failure to perform those tasks substantially, if
not exclusively, led to his unconscionable and
lengthy pretrial detention … My colleagues do
not explain why monitoring the criminal dockets
and reporting issues up to the Supreme Court
does not satisfy this definition of “service,” nor
why they discount Mr. Geness’ allegations that
he was denied the service of having AOPC flag
the extreme delay in his case directly to that
Supreme Court.
Geness II, 974 F.3d at 279-80; Appendix A, pp. 31a-32a.
The Third Circuit granted AOPC’s appeal, thus
endangering the mental health protections afforded by
the ADA for Mr. Geness, as well as all mentally disabled
defendants in the Commonwealth. In fact, given that
this holding appears to be a matter of first impression
nationwide, this ruling could open the floodgates for
litigation is the AOPC’s job, as part of its duties under the Rules of
Judicial Administration and in compliance with the ADA.

17
all agencies in all states charged with the duty to
ensure ADA compliance seeking to avoid that same
responsibility. This ruling would likely cause more cases
to surface, showcasing the devastating effects of prolonged
incarceration of mentally ill pretrial detainees.
Judge Ambro further wrote:
We are to construe complaints so “as to do
substantial justice . . . Mr. Geness’s allegations
more than suffice at this stage, and given the
harrowing ordeal he endured at the hands
of the judicial system, it would be a further
injustice not to allow his suit against the AOPC
(the very agency with the duty to monitor the
dockets and report up any issues) to continue.
To do otherwise is to define adequacy down. I
respectfully dissent.
Geness II, 974 F.3d at 281; Appendix A, p. 34a.
The federal courts are charged with the duty to
construe complaints so as to do substantial justice, both
to Mr. Geness, and to those current and future pretrial
detainees jailed for the sole reason that they are mentally
incompetent to stand trial. It is respectfully urged that
the Circuit’s decision does neither.

18
CONCLUSION
For the foregoing reasons, Mr. Geness respectfully
requests that this Honorable Court issue a writ of
certiorari to review the judgment of the Third Circuit
Court of Appeals.
			Respectfully submitted,
Joel S. Sansone
Counsel of Record
Massimo A. Terzigni
Elizabeth A. Tuttle
Law Offices of Joel Sansone
Two Gateway Center, Suite 1290
603 Stanwix Street
Pittsburgh, Pennsylvania 15222
(412) 281-9194
jsansone@joelsansonelaw.com
Counsel for Petitioner

Dated: March 12, 2021

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE THIRD
CIRCUIT, FILED SEPTEMBER 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2253
CRAIG A. GENESS
v.
ADMINISTRATIVE OFFICE OF
PENNSYLVANIA COURTS; COMMONWEALTH
OF PENNSYLVANIA; PENNSYLVANIA
DEPARTMENT OF HUMAN SERVICES
Administrative Office of Pennsylvania Courts,
Appellant.
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. No. 2-16-cv-00876)
District Judge: Honorable Mark A. Kearney
Before: AMBRO, HARDIMAN, and RESTREPO,
Circuit Judges
May 26, 2020, Argued
September 8, 2020, Filed

2a
Appendix A
OPINION OF THE COURT
RESTREPO, Circuit Judge.
Mentally disabled and deemed incompetent to stand
trial, Craig Geness was detained for nearly a decade before
the homicide charge against him was ultimately dismissed.
His case exhibits inexcusable failures in Pennsylvania’s
criminal justice and mental health systems. While there
is no doubt that Geness’s case languished for far too long,
we are limited here to the narrow question whether the
Administrative Office of Pennsylvania Courts (AOPC) may
plausibly be held liable for his misfortune.
This appeal arises from AOPC’s motion to dismiss
Geness’s claim under Title II of the Americans with
Disabilities Act (ADA), 42 U.S.C. § 12131, and the
Fourteenth Amendment. The District Court denied
AOPC’s motion, finding that AOPC does not have
sovereign immunity. For the reasons set forth below, we
will reverse the District Court’s judgment and remand for
dismissal of Geness’s Title II and Fourteenth Amendment
claim against AOPC.
I.

BACKGROUND AND PROCEDURAL HISTORY

The events leading up to this case reveal a breakdown
in Pennsylvania’s criminal justice system.1 Geness is a
permanently mentally disabled individual in his early
1. The following facts are taken from Geness’s Second Amended
Complaint except where otherwise noted.

3a
Appendix A
fifties. On November 17, 2006, he was detained after being
charged with aggravated assault. The charge was later
amended to homicide. This stemmed from an incident at
Geness’s assisted living facility, McVey Personal Care
Home, in Uniontown, Pennsylvania. Geness v. Cox, 902
F.3d 344, 349 (3d Cir. 2018). A resident of the facility fell
from the building’s porch and suffered serious injuries
that resulted in his death a few weeks later. Id. Despite
initial reports that the fall was an accident, the deceased
resident’s daughter contacted police to share her suspicion
that he might have been pushed. Id. at 349. Police then
initiated an investigation that led to the charge against
Geness. Id. at 349-50.
On June 18, 2007, a judge for the Court of Common
Pleas of Fayette County deemed Geness incompetent to
stand trial and ordered him transferred to a psychiatric
hospital for no more than sixty days to ascertain his
capacity to stand trial and his potential to regain
competency. Despite the judge’s order, Geness was not
immediately transferred because, he avers, “the waiting
list for beds for persons deemed incompetent to stand
trial far exceeded the number of beds that DHS [the
Pennsylvania Department of Human Services] had made
available.” App. 38 ¶ 17. Approximately two months after
the judge’s order was entered, and with no psychiatric
evaluation undertaken, another judge again “deemed
[Geness] incompetent to stand trial and directed that a
motion be filed when Plaintiff was deemed competent to
proceed.” App. 38 ¶ 19.

4a
Appendix A
Another two months after that (approximately ten
months after his arrest), Geness was finally transferred
to a psychiatric facility where he underwent an evaluation
on September 25, 2007 and was then returned to prison.
He was deemed incompetent with a “poor” prognosis for
improvement, yet no action was taken by the court, and
he remained imprisoned for years to come. App. 39 ¶ 21.
Throughout those years, his case was subject to the
court’s monthly “call of the list.” This is when a Court of
Common Pleas judge reviews a list of all pending criminal
matters that are ripe for trial, addressing each case
individually and either continuing it or scheduling the
trial. The district attorney and public defender for each
case attend this proceeding and provide the judge with
relevant information.
In Geness’s case, the district attorneys “acquiesced
to the repeated continuance” of his trial—and his public
defender “made no attempt to have [Geness’s] case removed
from the trial list, despite [his] known incompetency to
stand trial” and despite the public defender’s “authority
and [] opportunity” to make an appropriate request.
App. 40 ¶¶ 28, 30-31. Nor did any of the six judges who
at one time or another presided over the “call of the list”
intervene throughout three years of monthly check-ins.
On November 2 3 , 2 010, the publ ic defender
representing Geness “filed a motion requesting that [his]
trial be continued until [he] became competent.” App. 41
¶ 35. Less than a week later, a judge ordered his transfer
from prison to a psychiatric institution “for a period not
to exceed 90 days” to again evaluate his competency and
potential to regain competency. App. 41 ¶ 37. Geness was

5a
Appendix A
never transferred pursuant to that order and remained
in prison. Once again, on August 17, 2011, a judge ordered
a competency determination.
Finally, on September 4, 2011, approximately five
years after Geness’s arrest, a second competency
evaluation was conducted, this time at the prison. It
was again determined that Geness was incompetent to
stand trial and unlikely to improve. Later that month, a
judge “ordered that [Geness] was not competent to stand
trial and released him to be involuntarily committed to
a Long Term Structured Residence (“LTSR”), there to
remain without contact with the general public and to be
returned to Fayette County Prison upon completion of
his therapeutic program or upon a determination that he
is competent to stand trial.” App. 43 ¶ 48. On September
22, 2011, nearly five years after his arrest, Geness was
transferred to a LTSR.
Approximately four years after that, with Geness’s
case all the while subjected to the monthly “call of the
list,” the Commonwealth “filed a proposed order for nolle
prosequi all charges against the Plaintiff,” stating that
he “will never be competent for trial and that substantive
evidentiary issues existed which would impair the
Commonwealth’s ability to meet its burden of proof.” App.
43 ¶¶ 51, 53-54. On December 10, 2015, a judge entered
the order nolle prosequi all charges against Geness.
After nine years in custody without a trial, Geness was
released. 2
2. Throughout Geness’s time in custody, his counsel filed four
motions for habeas corpus and/or motions to dismiss the charge. No
hearings were held or rulings made on those requests.

6a
Appendix A
On June 17, 2016, Geness filed his original complaint
against the County of Fayette, City of Uniontown, Jason
Cox (formerly a Uniontown Police Department detective,
now chief of police), and James and Jean McVey (owners
of McVey Personal Care Home). He brought an Americans
with Disabilities Act (ADA) and Fourteenth Amendment
claim against the county and city, various civil rights
claims under 42 U.S.C. § 1983 against all defendants, and
an intentional infliction of emotional distress claim against
Cox and the McVeys.
On March 6, 2017, Geness moved for leave to amend his
complaint to add the Commonwealth of Pennsylvania as a
party based on the same allegations. The District Court
denied his motion for leave to amend, finding it barred by
the Rooker-Feldman doctrine.
After various motions before the District Court,
all defendants were dismissed except Detective Cox.
Following discovery, Cox filed a motion for summary
judgment, which the District Court granted on May 1,
2017. Geness appealed the summary judgment ruling on
his § 1983 claims against Cox and the denial of his motion
to amend his complaint to add the Commonwealth as a
party.
On appeal, this Court affirmed the District Court’s
grant of Cox’s summary judgment motion, reversed its
denial of leave for Geness to amend his complaint to add
the Commonwealth, and remanded for reinstatement
of Geness’s claim under Title II of the ADA and the
Fourteenth Amendment.

7a
Appendix A
Geness subsequently amended his complaint to add
a Title II and Fourteenth Amendment claim against the
Commonwealth. The Commonwealth then filed a motion to
dismiss based on sovereign immunity, which the District
Court denied. The Commonwealth did not appeal the
denial. On March 27, 2019, Geness filed a Second Amended
Complaint, the operative complaint, alleging Title II and
Fourteenth Amendment violations against three state
defendants—the Commonwealth, as well as AOPC and
DHS.
AOPC moved to dismiss based on sovereign immunity,
and the District Court denied its motion. AOPC timely
appealed, and the District Court’s denial of AOPC’s motion
to dismiss is now before us. This appeal does not involve
Geness’s claims against the Commonwealth or DHS;
AOPC is the only appellant.
II. STANDARD OF REVIEW3
We review de novo a motion to dismiss based on
sovereign immunity. Blanciak v. Allegheny Ludlum
Corp., 77 F.3d 690, 694 (3d Cir. 1996).4 At the motion to
3. The District Court had subject matter jurisdiction pursuant
to 28 U.S.C. §§ 1331 and 1343, and we exercise jurisdiction under
28 U.S.C. § 1291.
4. Geness filed a motion for leave to file a supplemental appendix
that contains materials that were not before the District Court. At
this stage of the litigation, we are constrained to “the allegations
contained in the complaint, exhibits attached to the complaint and
matters of public record,” and there is presently no reason to depart
from this rule. Pension Benefit Guar. Corp. v. White Consol. Indus.,

8a
Appendix A
dismiss stage, “we accept all well-pleaded allegations in
the Complaint as true and draw all reasonable inferences
in favor of the non-moving part[y].” M.A. ex rel. E.S. v.
State-Operated Sch. Dist. of City of Newark, 344 F.3d 335,
340, 342 (3d Cir. 2003). To survive a motion to dismiss,
factual allegations “must be enough to raise a right to
relief above the speculative level,” which “requires more
than labels and conclusions.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007).
III. DISCUSSION
The Eleventh Amendment renders States immune
from any lawsuit “commenced or prosecuted against one
of the United States by Citizens of another State, or by
Citizens or Subjects of any Foreign State.” U.S. Const.
amend. XI. While the Amendment’s terms only apply to
suits brought by citizens of another state, the Supreme
Court has “repeatedly held that this immunity also applies
to unconsented suits brought by a State’s own citizens.”
Tennessee v. Lane, 541 U.S. 509, 517, 124 S. Ct. 1978, 158
L. Ed. 2d 820 (2004). This immunity further extends to
“entities that are considered arms of the state.”5 Bowers
v. NCAA, 475 F.3d 524, 545 (3d Cir. 2007) (citing Regents
of the Univ. of Cal. v. Doe, 519 U.S. 425, 429, 117 S. Ct.
900, 137 L. Ed. 2d 55 (1997)).

Inc., 998 F.2d 1192, 1196 (3d Cir. 1993). We therefore deny Geness’s
motion, which would improperly expand the record on appeal.

5. It is undisputed that AOPC is an “arm of the Commonwealth.”
Appellant’s Br. 17.

9a
Appendix A
Congress has the power to abrogate states’ Eleventh
Amendment immunity, thus permitting suits to proceed
for specific claims, when it “unequivocally” expresses an
intent to do so and validly exercises this power within
the bounds of its authority under § 5 of the Fourteenth
Amendment. Id. at 550. “When Congress seeks to remedy
or prevent unconstitutional discrimination, § 5 authorizes
it to enact prophylactic legislation proscribing practices
that are discriminatory in effect, if not in intent, to carry
out the basic objectives of the Equal Protection Clause.”
Id. at 551 (quoting Lane, 541 U.S. at 520).
Congress unequivocally expressed its intent to
abrogate sovereign immunity for claims brought under
Title II of the ADA. United States v. Georgia, 546
U.S. 151, 154, 126 S. Ct. 877, 163 L. Ed. 2d 650 (2006)
(quoting 42 U.S.C. § 12202, which states that “a State
shall not be immune under the eleventh amendment to
the Constitution of the United States from an action
. . . for a violation of this chapter.”). The Title’s purpose,
in part, is “to invoke the sweep of congressional authority,
including the power to enforce the fourteenth amendment
and to regulate commerce, in order to address the major
areas of discrimination faced day-to-day by people with
disabilities.” 42 U.S.C. § 12101(b)(4); see also Bowers, 475
F.3d at 550 (acknowledging Congress’s clear intent to
abrogate sovereign immunity for Title II claims).
While Congress “must have a wide berth in devising
appropriate remedial and preventative measures” under
§ 5 of the Fourteenth Amendment, its power is not
“unlimited.” Lane, 541 U.S. at 519. The Supreme Court in

10a
Appendix A
Lane held that Congress validly abrogated state sovereign
immunity for claims brought under Title II “as it applies
to the class of cases implicating the fundamental right of
access to the courts.” Id. at 533-34. That claim was brought
by paraplegic individuals, one of whom was required to
appear in a second-floor courtroom in a building with
no elevator. Id. at 513. He crawled up the stairs of the
courthouse to attend his first court appearance. Id. For his
second appearance, he refused to crawl or be carried by
officers. Id. He was “consequently arrested and jailed for
failure to appear.” Id. The Court reiterated the principle
that “within the limits of practicability, a State must afford
to all individuals a meaningful opportunity to be heard.”
Id. at 532 (quoting Boddie v. Connecticut, 401 U.S. 371,
379, 91 S. Ct. 780, 28 L. Ed. 2d 113 (1971)). But it limited
its holding to Title II lawsuits that implicate “accessibility
of judicial services,” deliberately leaving unanswered
whether Congress validly abrogated sovereign immunity
for “Title II’s other applications,” for example, “failing
to provide reasonable access to hockey rinks, or even to
voting booths.” Id. at 530-31.
Subsequently, in Georgia, the Court made clear that
courts analyzing whether Congress validly abrogated
sovereign immunity for a Title II claim against a state or
state entity must conduct a “claim-by-claim” analysis. 546
U.S. at 159. It accordingly established a three-part test for
courts to determine whether sovereign immunity has been
abrogated in a particular case: “(1) which aspects of the
State’s alleged conduct violated Title II; (2) to what extent
such misconduct also violated the Fourteenth Amendment;
and (3) insofar as such misconduct violated Title II but

11a
Appendix A
did not violate the Fourteenth Amendment, whether
Congress’s purported abrogation of sovereign immunity
as to that class of conduct is nevertheless valid.” Id.
Here, we must apply this three-part test to determine
whether Congress validly abrogated sovereign immunity
for Geness’s claim against AOPC (and thus whether
the claim may proceed). Before we apply Georgia, we
will first examine the extent to which our Court’s prior
precedential opinion in this matter is controlling here, and
we will examine the District Court’s decision on remand.
Pursuant to Georgia, we will reverse the District Court’s
judgment and hold that AOPC retains its sovereign
immunity because Geness has not stated a Title II claim
against it.
A.

Our Court’s Prior Precedential Opinion

On August 28, 2018, our Court, inter alia, reversed
the District Court’s denial of Geness’s motion for leave
to amend his complaint to add the Commonwealth as a
defendant. We remanded the case for amendment of the
Complaint and reinstitution of his Title II and Fourteenth
Amendment claim.
In addressing whether the District Court should have
permitted Geness to amend his Complaint, we analyzed
whether his proposed Title II and Fourteenth Amendment
claim against the Commonwealth would be futile, thus
applying the same standard as a motion to dismiss (as

12a
Appendix A
we do here).6 We held that Geness’s proposed claim was
not futile and should be permitted. In the course of the
analysis, we addressed each requirement of a Title II
claim:
To state a claim under Title II of the ADA,
Geness must establish: “(1) he is a qualified
individual; (2) with a disability; (3) who was
excluded from participation in or denied
the benefits of the services, programs, or
activities of a public entity, or was subjected to
discrimination by any such entity; (4) by reason
of his disability.”
Geness, 902 F.3d at 361 (quoting Haberle v. Troxell, 885
F.3d 171, 178-79 (3d Cir. 2018) and citing 42 U.S.C. § 12132).
We found that Geness met all four requirements of
a cognizable Title II claim against the Commonwealth.
Specifically, we noted that
[r]egulations promulgated under the ADA
require that the Commonwealth “shall ensure
that inmates or detainees with disabilities
are housed in the most integrated setting
appropriate to the needs of the individuals,”
28 C.F.R. § 35.152(b)(2) (emphasis added),
6. “The standard for assessing futility is the ‘same standard of
legal sufficiency as applies under [Federal] Rule [of Civil Procedure]
12(b)(6).’” Great W. Mining & Mineral Co. v. Fox Rothschild LLP,
615 F.3d 159, 175 (3d Cir. 2010) (quoting Shane v. Fauver, 213 F.3d
113, 115 (3d Cir.2000)).

13a
Appendix A
and “[s]hall not place inmates or detainees
with disabilities in inappropriate security
classifications because no accessible cells or
beds are available,” id. § 35.152(b)(2)(i).
Id. at 361-62 (discussing several procedural protections
“designed to avoid undue delays and safeguard the fair
and efficient functioning of the criminal justice system,”
the denial of which gives rise to a cognizable ADA claim).
With respect to the Title II claim, we concluded that
“[a]s alleged, these multiple, protracted, and inexcusable
delays in the handling of Geness’s examinations, transfers,
and motions—resulting in nearly a decade of imprisonment
and civil commitment before a hearing was finally held on
his habeas petition—are more than sufficient to state a
claim under the ADA.” Id. at 362.
We went on to find that the same circumstances gave
rise to a claim under the Fourteenth Amendment:
[T]he constitutional claims Geness seeks to
bring against the Commonwealth as to both
the length of his pretrial imprisonment and
the length of his civil commitment would not be
futile. After his first psychological evaluation
indicated that he “remain[s] incompetent to
stand trial,” . . . Geness was incarcerated for an
additional three years before civil commitment
proceedings and a second examination were
even requested. And once institutionalized,
Geness was left to languish for another four

14a
Appendix A
years before he was granted a hearing on
his habeas petition and the charges against
him were dismissed. There is no question
this exceeded the “reasonable period of time
necessary” under Jackson to ascertain whether
there was a substantial probability Geness
would attain competency in the foreseeable
future.
Id. at 363-64 (citation omitted).
When we published this opinion, however, AOPC
was neither a party nor a contemplated party. Thus, it is
our task to square our prior holding that Geness stated
a Title II and Fourteenth Amendment claim against the
Commonwealth with Geness’s pleadings against AOPC.7
B. District Court on Remand
The District Court held that Geness sufficiently
pleaded a Title II and Fourteenth Amendment claim
against AOPC and that AOPC’s sovereign immunity was
validly abrogated (i.e., that Geness’s claim could proceed).
It stated that “[a]t this preliminary stage and mindful
Mr. Geness is not challenging judicial decision making
but rather failures in court administration practices[,]” it
would not dismiss his claim. Geness v. Commonwealth, 388
7. The law of the case doctrine instructs that “one panel of an
appellate court generally will not reconsider questions that another
panel has decided on a prior appeal in the same case.” In re City of
Phila. Litig., 158 F.3d 711, 717 (3d Cir. 1998). We are thus bound by
our prior opinion to the extent it bears upon the matter before us.

15a
Appendix A
F. Supp. 3d 530, 534 (W.D. Pa. May 28, 2019). And it noted
that discovery may help clarify “the potential liability and
damages among allegedly responsible state actors [AOPC,
DHS, and the Commonwealth].” Id. (“AOPC’s argument
of no involvement, or the more central involvement of
the Department of Human Services, is based on facts
requiring discovery on relative culpability.”).
In reaching this conclusion, the District Court found
convincing Geness’s general allegation that “AOPC is
responsible for ‘[e]nsuring accessible and safe courts
for all citizens’ by ‘[e]nsuring that the courts of the
Commonwealth comply with Title II.’” Id. at 534 (quoting
Second Am. Compl. ¶ 7 (App. 36 ¶ 7)). It also noted the
following more specific allegations from his Second
Amended Complaint: Geness alleged that AOPC “makes
regular inquiries of each county’s ADA coordinator with
regard to cases involving criminal defendants who are
pretrial detainees whose cases have not been called to trial
in a timely fashion,” App. 45 ¶ 66, and that even though
“AOPC repeatedly contacted the Fayette County court
administrator directly to inquire about the Plaintiff’s
case and the reasons for [his] extended incarceration
without trial,” App. 45 ¶ 67, AOPC failed to take “any
action designed to provide the Plaintiff with his right to
be brought to trial on the charges that he faced,” App. 45
¶ 67. Further, Geness alleged that the Fayette County
Court administrator, who serves as the ADA coordinator
for Fayette County, received a daily list of prisoners that
showed their length of incarceration—and that his name
appeared on this list.

16a
Appendix A
T he Dist r ict Cou r t a lso focused on AOPC ’s
duties pursuant to the Pennsylvania Rules of Judicial
Administration. These rules task AOPC w ith (1)
“review[ing] the operation and efficiency of the system
and of all offices related to and serving the system
and, when necessary . . . report[ing] to the Supreme
Court or the Judicial Council with respect thereto,” (2)
“examin[ing] the state of the dockets and practices and
procedures of the courts and of the magisterial district
judges and mak[ing] recommendations for the expedition
of litigation,” and (3) “prepar[ing] educational and training
materials for system and related personnel and to conduct
educational and training sessions.” Geness, 388 F. Supp. 3d
at 534 (quoting Pa.R.J.A. Nos. 505(1), (6), (12) (alterations
in original)).
Considering all of this, the District Court concluded
that “Mr. Geness plausibly pleads the AOPC could have
helped him by exercising its duty to monitor the status
of dockets and make recommendations to expedite
litigation, ensure ADA compliance at a systemic level in
the courts of the Commonwealth, and reporting to the
Pennsylvania Supreme Court.” Id. The District Court did
not, however, explain how or at what point AOPC could
or should have exercised these duties, given Geness’s
acknowledgement that AOPC “repeatedly contacted the
Fayette County Court administrator directly to inquire
about the Plaintiff’s case and the reasons for the Plaintiff’s
extended incarceration without trial,” App. 45 ¶ 67, and
that Geness “is not challenging judicial decision making,”
Geness, 388 F. Supp. 3d at 532.

17a
Appendix A
In summary, the District Court found that Geness
had stated a viable Title II and Fourteenth Amendment
claim because AOPC allegedly failed to take unspecified
action to expedite his case and failed to take initiative to
report the status of his case to the Pennsylvania Supreme
Court. The District Court thus concluded that it could
not rule out AOPC’s Title II and Fourteenth Amendment
liability as a matter of law and that AOPC therefore was
not immune from suit. 8
C.

Georgia Analysis

To determine whether Congress validly abrogated
sovereign immunity for Geness’s Title II and Fourteenth
Amendment claim against AOPC, we must apply the
three-part Georgia test. 9 The District Court, without
explicitly noting that it was applying Georgia, concluded
that the first and second inquiries were satisfied, thus
permitting the claim against AOPC to proceed. Pursuant
to the analysis below, we disagree with the District
Court and conclude that Geness has failed to satisfy
the first requirement of Georgia because he failed to
8. The District Court also addressed whether AOPC possessed
quasi-judicial immunity and found that it did not. Id. at 536-38. AOPC
does not appeal this ruling.
9. As noted above, this test requires courts to examine “(1)
which aspects of the State’s alleged conduct violated Title II;
(2) to what extent such misconduct also violated the Fourteenth
Amendment; and (3) insofar as such misconduct violated Title II
but did not violate the Fourteenth Amendment, whether Congress’s
purported abrogation of sovereign immunity as to that class of
conduct is nevertheless valid.” Georgia, 546 U.S. at 159.

18a
Appendix A
set forth a plausible claim that AOPC violated Title II.
Because Geness’s allegations fail to satisfy Georgia’s first
requirement, we need not address the second and third
requirements.
To state a claim under Title II of the ADA, in satisfaction
of the first Georgia requirement, a party must sufficiently
plead that “(1) he is a qualified individual; (2) with a
disability; (3) who was excluded from participation in or
denied the benefits of the services, programs, or activities
of a public entity, or was subjected to discrimination by
any such entity; (4) by reason of his disability.”10 Geness,
902 F.3d at 361 (quoting Haberle, 885 F.3d at 178-79); 42
U.S.C. § 12132.11 In our prior precedential opinion, we
concluded that the first and second requirements were
satisfied, as well as the third and fourth requirements as
they relate to the Commonwealth. Id. at 361-62. We must
now determine whether AOPC denied Geness “the benefits
10. It is undisputed that AOPC is a “public entity.” See 42 U.S.C.
§ 12131(1)(B) (stating that public entities include “any department,
agency, special purpose district, or other instrumentality of a State
or States or local government”).
11. A plaintiff seeking compensatory damages under the ADA
must also sufficiently allege that the public entity intentionally
discriminated against him or her. Haberle, 885 F.3d at 181. To satisfy
this element of intentional discrimination, a plaintiff must allege
at least “deliberate indifference,” which requires “(1) knowledge
that a federally protected right is substantially likely to be violated
. . . and (2) failure to act despite that knowledge.” Id. (quoting S.H.
ex rel. Durrell v. Lower Merion Sch. Dist., 729 F.3d 248, 265 (3d Cir.
2013)) (alteration in original); see also Geness, 902 F.3d at 362 n.13.
We will not address deliberate indifference here because we hold
that Geness’s allegations fail to satisfy Title II’s other requirements.

19a
Appendix A
of [its] services, programs, or activities . . . by reason of
his disability.” Id.
The following are Geness’s allegations regarding
AOPC, drawn directly from his Second A mended
Complaint:12
• “Defendant AOPC is a subsidiary unit of the
Commonwealth of Pennsylvania and as such acts
as an agent of the Commonwealth in various
matters related to supervision and administration
of the Pennsylvania Unified Judicial System. The
Pennsylvania Unified Judicial System includes
12. Geness’s Second Amended Complaint also links AOPC’s
alleged wrongdoing to the conduct of judges in their disposition of his
case. See, e.g., App. 43 ¶ 52 (“The above-described Judges continued
to permit Plaintiff’s case to be listed for trial, despite their actual
knowledge of his incompetency.”). Allegations of wrongdoing based
on judicial conduct are omitted here because AOPC’s administrative
functions and the independent role of the judiciary must not be
conflated. See Figueroa v. Blackburn, 208 F.3d 435, 440 (3d Cir. 2000)
(“The doctrine of judicial immunity is founded upon the premise that
a judge, in performing his or her judicial duties, should be free to act
upon his or her convictions without threat of suit for damages.”). The
parties do not present and we are not aware of any legal authority
that would permit AOPC to be found liable based on judicial conduct.
Further, Geness acknowledges that AOPC cannot be held liable
based on judges’ decision-making. Appellee’s Br. 25 (“The AOPC
does not have oversight over criminal cases and the decisions that
are required in each such case to the extent that those are duties to
be performed by the Judges of the Common Pleas Court. . . . AOPC
does in fact have the duty to oversee the actions of those Judges to
ensure that, among other things, the courts comply with the rights
of disabled individuals.”).

20a
Appendix A
judges of the Court of Common Pleas of the
various Pennsylvania counties, including Fayette
County. In its capacity as a subsidiary unit of
the Commonwealth, AOPC administers the
Pennsylvania Unified Judicial System and is
responsible for the prompt and proper disposition
of all business of the courts of the Commonwealth of
Pennsylvania. Among the duties and responsibilities
of the AOPC is insuring accessible and safe courts
for all citizens. The duties of the AOPC include
insuring that the courts of the Commonwealth
comply with Title II of the [ADA]. The AOPC
attempts to insure compliance with the ADA
through interaction with ADA coordinators in each
county of the Commonwealth. For Fayette County,
Pennsylvania, the role of AOPC ADA coordinator
is filled by the deputy court administrator, who
reports directly to the court administrator.” App.
36 ¶ 7.
• “AOPC, through the Fayette County Court of
Common Pleas . . . discriminated against [him]
because of his disability by depriving him of the
administration of judicial services and the normal
benefits of criminal procedure and due process of
the law.” App. 44 ¶ 61.
• “As part of its effort to fulfill its responsibility to
insure the Commonwealth’s compliance with the
ADA, Defendant AOPC makes regular inquires of
each county’s ADA coordinator with regard to cases
involving criminal defendants who are pretrial

21a
Appendix A
detainees whose cases have not been called to trial
in a timely fashion according to Pennsylvania law.”
App. 45 ¶ 66.
• “Defendant AOPC repeatedly contacted the Fayette
County court administrator directly to inquire
about the Plaintiff’s case and the reasons for the
Plaintiff’s extended incarceration without trial.
Notwithstanding that those inquiries were made
by Defendant AOPC, neither the AOPC, nor any
other agent of AOPC, including the AOPC’s local
ADA coordinator in Fayette County, took any action
designed to provide the Plaintiff with his right to
be brought to trial on the charges he faced.” App.
45 ¶ 67.
• “During the period of Plaintiff’s incarceration, the
Fayette County ADA coordinator was the assistant
court administrator. At all times relevant to this
case, the assistant court administrator reported
directly to the court administrator.” App. 45 ¶ 68.
• “During the period of Plaintiff’s incarceration
. . . , the Fayette County court administrator
received from the Fayette County Prison a daily
list of prisoners incarcerated in the Fayette County
Prison. This list included various information about
each incarcerated individual, including the date
that the individual was incarcerated, as well as the
minimum and maximum incarceration dates for
each prisoner.” App. 45-46 ¶ 69.

22a
Appendix A
• “On each of the daily lists sent from the prison to
the court administrator, Plaintiff Craig Geness
appeared together with information about his
incarceration described above.” App. 46 ¶ 70.
• The AOPC’s conduct, described above, “deprived
[Geness] of his right to the justice system, which
is protected by the Fourteenth Amendment of the
United States Constitution.” App. 47 ¶ 82.
Identifying AOPC’s “services, programs, or activities”
at the foundation of Geness’s Title II claim is a necessary
first step to determining whether his claim is cognizable.
See Disability Rights N.J., Inc. v. Comm’r, N.J. Dep’t
of Human Servs., 796 F.3d 293, 301-03 (3d Cir. 2015).
“[T]he phrase ‘service, program, or activity’ under Title
II . . . is ‘extremely broad in scope and includes anything
a public entity does.’” Furgess v. Pa. Dep’t of Corr., 933
F.3d 285, 289 (3d Cir. 2019) (quoting Disability Rights,
796 F.3d at 301).
In Disability Rights, this Court identified the alleged
“service, program, or activity” as a judicial hearing
before a mentally ill person can be forcibly medicated in
a nonemergent situation. Id. at 303-04, 307 (holding that
“judicial process before the nonemergent administration
of psychotropic drugs is not a ‘service, program, or
activity’ of New Jersey from which the civilly committed
are excluded). In Furgess, this Court concluded that a
prison’s “provision of a shower is a service, program, or
activity.” 933 F.3d at 291 (holding that Furgess adequately
alleged a Title II claim based on the prison’s failure to

23a
Appendix A
accommodate his need for a shower). In Bowers, the
University of Iowa’s program was its provision of athletic
scholarships. 475 F.3d at 553 (holding that Bowers stated
a claim under Title II).
Based on Geness’s Second Amended Complaint and
his arguments before this Court, and because Geness
concedes that AOPC’s liability cannot be premised on
judicial decision-making, see supra note 12, the only
“services, programs, or activities” at issue are AOPC’s
administrative duties to (1) “intervene directly with the
Fayette County Court to ensure that the Plaintiff’s case
moved forward,” and (2) “seek intervention for such result
by the Pennsylvania Supreme Court.” Appellee’s Br. 22.
Geness argues that Title II requires AOPC to provide
him these two services from which he was excluded based
on his disability.13 AOPC counters that its “enumerated
powers” do not authorize it to meddle in “specific
litigation.” Appellant’s Br. 33.
First, regarding AOPC’s alleged failure to directly
intervene with the Fayette County Court of Common
Pleas, Geness acknowledged in his Second Amended
Complaint that AOPC “repeatedly” made inquiries about
13. To the extent Geness additionally alleges that AOPC had
a duty to ensure his motions for habeas corpus relief and motions
to dismiss the charge against him were heard and ruled upon in a
timely manner, we conclude that these allegations are both dependent
on judicial conduct and too speculative to sustain his claim because
they are not linked to any alleged service, program, or activity of
AOPC under Pennsylvania Rule of Judicial Administration 505 or
otherwise. See supra note 12; Twombly, 550 U.S. at 555.

24a
Appendix A
the length of his detention to the court administrator.
App. 45 ¶¶ 66-67. But, he alleged, AOPC failed to take
“any action” beyond those inquiries that would “provide
[him] with his right to be brought to trial.” App. 45 ¶ 67.
He neither identifies in his Complaint nor argues before
us what further action AOPC should have or could have
taken. And it is difficult to imagine what action it could
have taken in light of Geness’s concession that AOPC is
not liable for judges’ decision-making in individual cases.
See supra note 12. Thus, Geness’s allegation of AOPC’s
failure to directly intervene with the county court in some
unspecified manner, beyond its repeated inquiries to the
court administrator, cannot sustain his claim under Title
II of the ADA. See Twombly, 550 U.S. at 555 (stating
that allegations must be more than “speculative” or
“conclusory”).
This leaves only Geness’s argument that AOPC failed
to seek intervention from the Pennsylvania Supreme
Court. He does not make this allegation anywhere in
his Second Amended Complaint. It stems from AOPC’s
“powers and duties” enumerated in the Pennsylvania
Rules of Judicial Administration. Pa.R.J.A. No. 505.
We will take judicial notice of the Pennsylvania Rules of
Judicial Administration, as they are “matters of public
record,” which the District Court considered as well.
Buck v. Hampton Twp. Sch. Dist., 452 F.3d 256, 260 (3d
Cir. 2006) (quoting 5B Charles A. Wright & Arthur R.
Miller, Federal Practice & Procedure § 1357 (3d ed. 2004)).
AOPC’s duties include, in relevant part:

25a
Appendix A
(1) To review the operation and efficiency of the
system and of all offices related to and serving
the system and, when necessary, to report to
the Supreme Court or the Judicial Council with
respect thereto. . . .
(6) To examine the state of the dockets and
practices and procedures of the courts and
of the district justices of the peace and
make recommendations for the expedition of
litigation.
Pa.R.J.A. No. 505(1), (6).
The “service, program, or activity” requirement
under Title II is “extremely broad in scope and includes
anything a public entity does.” Furgess, 933 F.3d at 289
(finding that “a prison’s provision of showers to inmates
fits within this expansive definition”). Nonetheless, the
“service, program, or activity” must be one that the
entity actually provides. See, e.g., Lane, 541 U.S. at 531
(holding that access to court proceedings is a service
provided by the state). This is an obvious but important
limitation. For example, in Disability Rights, we held
that “the provision of judicial process before the [forcible]
nonemergent administration of psychotropic drugs is not
a ‘service, program, or activity’ of New Jersey from which
the civilly committed are excluded.” 796 F.3d at 305, 307
(stating that this was not a “public service, program, or
activity to which nondisabled individuals have access”).

26a
Appendix A
Our dissenting colleague cites Pa.R.J.A. No. 505(1), (6)
as the basis of his opinion that Geness has stated a viable
Title II claim against AOPC. These provisions, however,
do not suffice to establish a Title II claim against AOPC.
They charge AOPC with “review[ing] the operation and
efficiency of the system” and reporting to the Supreme
Court “when necessary”—and with “examin[ing] the state
of the dockets and practices and procedures of the courts
. . . and mak[ing] recommendations for the expedition
of litigation.” Pa.R.J.A. No. 505(1), (6). These rules
unambiguously require AOPC to facilitate an “efficien[t]”
and “expeditio[us]” system, in line with its role as an
administrative body. They do not task AOPC with policing
potential civil rights violations in particular cases—to do
so would task the AOPC with making legal determinations
and recommendations. The AOPC is not, and should not
be, a judicial back-seat driver. See supra note 12.
Geness a rg ues that AOPC’s failure to “seek
intervention by the Pennsylvania Supreme Court”
impacted his ability to be “timely [tried] on the charges
that he faced.” Appellee’s Br. 11. This argument requires
some unpacking. First, he was never competent to stand
trial throughout his years of detainment—and subjecting
him to trial would have violated his due process rights.
See Cooper v. Oklahoma, 517 U.S. 348, 354, 116 S. Ct.
1373, 134 L. Ed. 2d 498 (1996) (“We have repeatedly
and consistently recognized that the criminal trial of an
incompetent defendant violates due process.” (internal
quotation marks omitted)). Secondly, Geness neither
alleges nor attempts to argue that AOPC had any control
over whether he was housed in a prison versus a long-

27a
Appendix A
term care facility while deemed incompetent. Thus, with
his argument properly distilled, Geness is effectively
urging this Court to hold that AOPC had a duty to seek
intervention of the Pennsylvania Supreme Court to have
his case dismissed before it languished for nine years while
he remained incompetent and—for reasons both unclear
and inexcusable—remained imprisoned for much of that
time. He makes this argument despite acknowledging that
he had representation and access to the court throughout
the years he was imprisoned and civilly committed. See
App. 40 ¶¶ 30-31 (stating that Geness’s public defender
“made no attempt to have [his] case removed from the
trial list, despite [his] known incompetency to stand trial”
and despite having “the authority and the opportunity
to intervene with the Court”); App. 40 ¶¶ 26-27 (stating
that Geness’s case was subject to the court’s “call of the
list,” whereby his counsel, a district attorney, and a judge
evaluated the status of his case on a monthly basis).
By Geness’s argument, in order for AOPC to comply
with Title II, it had to suggest to the Pennsylvania
Supreme Court that his case be dismissed because he
was not competent to stand trial. AOPC would “in effect
. . . be required to closely monitor, deeply evaluate, and
consider intervening in every criminal case pending in
the Commonwealth.” Appellant’s Reply 1. In a case such
as this, AOPC argues, “even if aware of the procedural
status,” it “would not have known whether the extended
delay was part of a strategic course by defense counsel,
the thoughtful deliberative process of the judge, or some
other factor peculiar to that specific case.” Appellant’s Br.
41. We find AOPC’s arguments persuasive.

28a
Appendix A
Further, AOPC’s powers do not allow it to actually
hold a criminal trial, which Geness alleges it denied him.
Appellee’s Br. 15, 25, 26 n.22. Even had AOPC reported to
the Pennsylvania Supreme Court or the Fayette County
Court of Common Pleas about the delay in Geness’s case,
it remained the exclusive power of the courts to actually
do something about it.
Relatedly, since Geness was not competent to stand
trial, a court’s decision regarding whether a case should
be dismissed depends on the evidence and law underlying
the charge and the basis for dismissal. Weighing such
matters is indisputably a judicial function. This brings us
full circle to Geness’s acknowledgement that AOPC does
not have a duty to meddle with judicial decision-making.
See supra note 12. Because judicial decision-making is not
a service AOPC provides to either disabled or nondisabled
individuals, Geness was not excluded from this service
based on his disability. See Disability Rights, 796 F.3d
at 305.
Further, Title II requires not only that a public
entity “excluded” a disabled individual from a service it
provides but also that such an exclusion was “by reason of
his disability.” Geness, 902 F.3d at 361 (quoting Haberle
v. Troxell, 885 F.3d 171, 178-79 (3d Cir. 2018) and citing
42 U.S.C. § 12132). Neither Geness nor the dissent sets
forth a plausible allegation or argument regarding how
AOPC neglected to report the delay in his case to the
Pennsylvania Supreme Court “by reason of his disability.”
Id. While his case appears to have languished due to his
disability (i.e., while he was incompetent to stand trial),
AOPC had no power over the disposition of his case,
and there is simply no allegation or argument before

29a
Appendix A
us regarding how AOPC’s alleged failure to contact the
Supreme Court connects to Geness’s disability.
For the reasons set forth above, Geness’s allegations
against AOPC fail to satisfy the first requirement of
Georgia—setting forth a plausible Title II claim. We
therefore hold that Congress has not validly abrogated
AOPC’s sovereign immunity regarding this particular
claim. In conclusion, we will reverse the District Court’s
judgment and remand this case for dismissal of the claim
against AOPC. Though we exclude AOPC as a potentially
responsible party, the human suffering endured by Geness
due to the mishandling of his case cannot be overstated.
This opinion does not impact Geness’s claims against the
Commonwealth and DHS, which are not currently before
us.

30a
Appendix A
AMBRO, Circuit Judge, dissenting
The blink response to a suit against a clerk’s office
is that this cannot be. It is simply counterintuitive.
Thus I easily understand why my colleagues believe it
correct to reverse Judge Kearney’s decision. See Geness
v. Pennsylvania, 388 F. Supp. 3d 530 (W.D. Pa. 2019)
(emphasis omitted). But at the motion-to-dismiss stage in
this Les Misérables scenario, I am persuaded by his wellreasoned analysis. Thus I would affirm and hold that Craig
Geness has pled facts sufficient to abrogate the sovereign
immunity of the Administrative Office of Pennsylvania
Courts (“AOPC”) for purposes of his claims under Title II
of the Americans with Disabilities Act (“ADA”), 42 U.S.C.
§ 12131, et seq., and the Fourteenth Amendment.
The majority opinion recites well the tragic facts
in this case. Mr. Geness languished in custody without
a trial for over nine years before the case against him
was dropped because he would never be competent to
stand trial and substantial evidentiary issues impaired
the Commonwealth’s prosecution. This came after it was
determined early on that he was incompetent and unlikely
to improve, and while four separate motions for habeas
corpus relief and motions to dismiss were pending (without
a hearing or ruling on any of them). To say that Mr. Geness
suffered a grave injustice at the hands of the system for
justice is inadequate. There are no words.
My colleagues in the majority conclude that Mr.
Geness has failed to satisfy the first requirement of the
three-prong test outlined in United States v. Georgia, 546
U.S. 151, 126 S. Ct. 877, 163 L. Ed. 2d 650 (2006). They hold
that he did not state a plausible Title II claim because he

31a
Appendix A
did not allege that the AOPC denied him “the benefits of
[its] services, programs, or activities . . . by reason of his
disability.” Geness v. Cox, 902 F.3d 344, 361 (3d Cir. 2018)
(quoting Haberle v. Troxell, 885 F.3d 171, 178-79 (3d Cir.
2018), and citing 42 U.S.C. § 12132).
In my view, Mr. Geness clearly identifies the provisions
of Pennsylvania law that tasked the AOPC with monitoring
the criminal docket and reporting failures directly to the
Commonwealth’s Supreme Court. And he alleges that the
AOPC’s failure to perform those tasks substantially, if not
exclusively, led to his unconscionable and lengthy pretrial
detention. I rely on the same law and portions of Mr.
Geness’s Second Amended Complaint as my colleagues
to reach this opposite conclusion.
Sections (1) and (6) of Rule 505 of the Pennsylvania
Rules of Judicial Administration (“Pa. R.J.A.”) charge
the AOPC with “review[ing] the operation and efficiency
of the system and of all offices related to and serving
the system and, when necessary . . . [,] report[ing] to
the [Commonwealth] Supreme Court or the Judicial
Council with respect thereto,” Pa. R.J.A. No. 505(1), and
“examin[ing] the state of the dockets and practices and
procedures of the courts and of the magisterial district
judges and mak[ing] recommendations for the expedition
of litigation,” id. No. 505(6).
Mr. Geness alleges that the AOPC “makes regular
inquiries of each county’s ADA coordinator with regard
to cases involving criminal defendants who are pretrial
detainees whose cases have not been called to trial in a
timely fashion,” App. 45 ¶ 66, and that it in fact “repeatedly
contacted the Fayette County court administrator directly

32a
Appendix A
to inquire about [Mr. Geness’s] case and the reasons for
the . . . extended incarceration without trial,” App. 45 ¶ 67.
It, however, took no further action “designed to provide
[him] with his right to be brought to trial on the charges
that he faced.” Id. Additionally, he alleges that during his
incarceration “the Fayette County court administrator
received . . . a daily list of prisoners incarcerated in the
Fayette County Prison . . . , including the date that [each]
individual was incarcerated, as well as the minimum and
maximum incarceration dates for each . . . .” App. 45-46
¶ 69. Mr. Geness appeared on each list. App. 46 ¶ 70.
Based on the directives in the Pennsylvania Rules of
Judicial Administration and Mr. Geness’s allegations that
the AOPC failed to provide him the services of monitoring
the docket and reporting the delay in his case to the
Commonwealth Supreme Court directly, he has plausibly
pled a claim based on Title II of the ADA. “[T]he phrase
service, program, or activity under Title II . . . is extremely
broad in scope and includes anything a public entity does.”
Furgess v. Pa. Dep’t of Corr., 933 F.3d 285, 289 (3d Cir.
2019) (citation and internal quotation marks omitted). My
colleagues do not explain why monitoring the criminal
dockets and reporting issues up to the Supreme Court
does not satisfy this definition of “service,” nor why they
discount Mr. Geness’s allegations that he was denied the
service of having the AOPC flag the extreme delay in his
case directly to that Supreme Court.
Mr. Geness does not propose that the AOPC had to
guarantee specific results, or dictate to Commonwealth
judges how to rule in any particular case, or grant him any
form of judicial relief. He asserts that the AOPC had the
duty to monitor the state of the dockets, which it did, and

33a
Appendix A
seek intervention by the Supreme Court, which it failed
to do. Neither the AOPC nor my colleagues cite to any
case or provision of law that would have barred the AOPC
from fulfilling its obligations under the Pennsylvania
Rules of Judicial Administration. Rule 505 provides the
basis for the AOPC to ring the alarm in cases like the one
before us. And to say that it had an obligation to make a
recommendation to expedite litigation where there was
a nearly decade delay is not the same as arguing that the
AOPC has an obligation to intervene in every pending
criminal case. There was nothing ordinary about the
procedural posture of this case.1
1. My colleagues also conclude that Mr. Geness failed to allege
that the AOPC intentionally discriminated against him “by reason
of his disability,” as is required to state an ADA claim. Geness v.
Cox, 902 F.3d 344, 361 (3d Cir. 2018) (quoting Haberle, 885 F.3d at
178-79 and citing 42 U.S.C. § 12132). They acknowledge that the
element of intentional discrimination is met when a plaintiff alleges
“deliberate indifference,” which requires “(1) knowledge that a
federally protected right is substantially likely to be violated . . . and
(2) failure to act despite that knowledge.” Haberle, 885 F.3d at 181
(citation omitted). But they do not explain how it is that Mr. Geness
did not sufficiently plead knowledge by the AOPC that his rights
were being violated when he in fact alleges that during the period
of his incarceration the court administrator received a daily list of
prisoners that included his name, the duration of his incarceration,
and the status of his case, App. 45-46, and that the AOPC repeatedly
inquired about the status of his case, App. 45. Nor do they explain why
Mr. Geness did not sufficiently plead failure to act when he does allege
that the AOPC, despite knowledge of the delay in his case, failed to
intervene with the Supreme Court on his behalf as it was authorized
to do under Pennsylvania’s Rules of Judicial Administration. Id.
The argument that the AOPC had no power over the disposition
of Mr. Geness’s case, and thus did not cause the delay, misses the

34a
Appendix A
Any concern about whether the AOPC actually had
the ability to take further action on behalf of Mr. Geness
is a matter for discovery. As the District Court pointed
out, “a developed factual record may show, as a matter of
fact, the AOPC could not have done more.” Geness, 388 F.
Supp. 3d at 535. But how can we say at this stage that the
AOPC does not in fact have mechanisms and procedures
in place to ensure that cases like the one before us do not
slip through the cracks? How can we say that it did not,
in the past, alert up the chain on behalf of other criminal
defendants but failed to do so in Mr. Geness’s case?
We are to construe complaints so “as to do substantial
justice.” Alston v. Parker, 363 F.3d 229, 234 (3d Cir. 2004)
(quoting Fed. R. Civ. P. 8(f)). Mr. Geness’s allegations more
than suffice at this stage, and given the harrowing ordeal
he endured at the hands of the judicial system, it would be
a further injustice not to allow his suit against the AOPC
(the very agency with the duty to monitor the dockets and
report up any issues) to continue. To do otherwise is to
define adequacy down. I respectfully dissent.

point. Under our case law, a successful ADA claim only requires
the plaintiff to show but-for causation. CG v. Pa. Dep’t of Educ., 734
F.3d 229, 236 n.11 (3d Cir. 2013). Mr. Geness does not have to allege
or ultimately prove that the AOPC alone caused the rights violation
he suffered. See Furgess v. Pa. Dep’t of Corr., 933 F.3d 285, 291 n.25
(3d Cir. 2019). At the pleading stage, he has more than sufficiently
alleged that the AOPC’s failure to act on his behalf substantially
caused and contributed to the delay in his case. And what ultimately
transpired internally at the AOPC with respect to Mr. Geness’s case
is something he should have the opportunity to determine through
discovery. That, however, remains a mystery, as we now cut short
his case against that agency.

35a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF PENNSYLVANIA
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION
NO. 16-876
CRAIG GENESS
v.
COMMONWEALTH OF PENNSYLVANIA, et al.
MEMORANDUM
KEARNEY, J.				

May 28, 2019

Craig Geness, a life-long mentally impaired man
once living in an adult group home, now seeks damages
under the Americans with Disabilities Act alleging the
Commonwealth of Pennsylvania discriminated against
him by holding him in custody in Fayette County Prison
for 3,309 days without a trial before finally dismissing
charges against him.
Mr. Geness struggles to timely sue a responsible
party. We dismissed his civil rights and state law claims
against the arresting detective as untimely. Our Court
of Appeals affirmed on those claims but remanded for
us to consider the Commonwealth’s liability under the

36a
Appendix B
Americans with Disabilities Act (ADA). After we found Mr.
Geness plead an ADA claim, the Commonwealth argued
it can only be sued through its agencies and officials. Mr.
Geness responded by adding two Commonwealth agency
defendants, the Administrative Office of Pennsylvania
Courts (AOPC) and Pennsylvania Department of Human
Services. Mr. Geness alleges the AOPC can be liable
under the ADA both for the conduct of its agent judges in
administering dockets and for systemic failures to ensure
accessible courts.
The AOPC, repeating some of the Commonwealth’s
failed arguments, moves to dismiss arguing Mr. Geness
fails to plead it violated the ADA, it is shielded by
sovereign immunity and quasi-judicial immunity, and
Mr. Geness’s claims are time barred. At this preliminary
stage and mindful Mr. Geness is not challenging
judicial decision making but rather failures in court
administration practices touted to ensure accessibility
for mentally impaired persons, Mr. Geness may proceed
in challenging the AOPC’s alleged failures in the second
amended complaint. Discovery may allow us to understand
the potential liability and damages among allegedly
responsible state actors under the ADA.
I.

Allegations.

The Commonwealth criminal justice system’s
treatment of Mr. Geness is fully described in our May 1,
2017 Memorandum1 and our Court of Appeals’ August
1. Geness v. Cox, No. 16-876, 2017 U.S. Dist. LEXIS 65616, 2017
WL 1653613 (W.D. Pa. May 1, 2017).

37a
Appendix B
28, 2018 Opinion. 2 As the specific conduct relating to the
dismissed arresting detective and failures of prosecutors
and defense lawyers are not before us today, we do not
repeat the often-inexplicable litany of what our Court of
Appeals described as “multipoint failures in the criminal
justice system.” 3 In response to the Commonwealth’s
arguments it cannot be held liable because it is an
improper party (notwithstanding the Court of Appeals’
direction on remand), Mr. Geness responded with a
second amended complaint adding the AOPC and the
Pennsylvania Department of Human Services.
Mr. Geness pleads at least two theories of liability
against the AOPC: (1) under an agency theory, the
Fayette County judges’ unexplained failure to proceed
with hearings, rulings or direction violate the ADA; and,
(2) under a direct liability theory, the AOPC systemically
failed to monitor and impose policies to ensure access to
the courts for mentally impaired persons.
In support of his agency theory, Mr. Geness pleads:
•

Over the course of his detention, Mr. Geness
filed four Motions for habeas corpus relief
and/or Motions to dismiss charges.

• Despite numerous opportunities to do
so over his 3,309 days in custody, the
Pennsylvania courts held no hearings or
2. Geness v. Cox, 902 F.3d 344 (3d Cir. 2018)).
3. Id. at 365.

38a
Appendix B
issued rulings on those motions despite
the judges and AOPC’s actual knowledge
of Mr. Geness’s unchanging mental state
and prolonged detention in Fayette County
Prison and his later detention.
• Judges repeatedly adjourned trial dates
despite knowing Mr. Geness’s permanent
inability to stand trial.
• The Fayette County Prison Warden made
numerous complaints to the assigned trial
judge asking the criminal justice system to
“do something” to remove Mr. Geness from
prison.
• The Commonwealth through AOPC’s failure
to monitor judges’ docket management
exhibited deliberate indifference to Mr.
Geness’s right to be provided statutory
safeguards for the protection of disabled
p e r s on s , a n d e x h i b i t e d d e l i b e r a t e
indifference to Mr. Geness’s rights.
On his direct liability theory, Mr. Geness pleads:
• AOPC supervises and administers the
judicial branch of the Commonwealth and
acted by and through its officials. AOPC
is a subsidiary unit of the Commonwealth
and acts as an agent related to supervision
and administration of the Pennsylvania

39a
Appendix B
Unified Judicial System. The Pennsylvania
Unified Judicial System includes judges of
the Court of Common Pleas of the various
Pennsylvania counties, including Fayette
County. In its capacity as a subsidiary unit
of the Commonwealth, AOPC administers
the Pennsylvania Unified Judicial System
and is responsible for the prompt and proper
disposition of all businesses of the courts of
the Commonwealth of Pennsylvania.
• Among the duties and responsibilities of
the AOPC is ensuring accessible and safe
courts for all citizens. The duties of the
AOPC include ensuring the courts of the
Commonwealth comply with the ADA. The
AOPC attempts to ensure compliance with
the ADA through interaction with ADA
coordinators in each county. For Fayette
County, the deputy court administrator, who
reports directly to the court administrator,
is the ADA coordinator.
• As part of its effort to fulfill its responsibility
to ensure the Commonwealth’s compliance
with the ADA, the AOPC regularly inquires
of each county’s ADA coordinator about
cases involving criminal defendants who
are pretrial detainees whose cases have
not been timely called to trial under
Pennsylvania law.

40a
Appendix B
• AOPC repeatedly contacted the Fayette
County court administrator directly to
inquire about Mr. Geness’s case and the
reasons for extended incarceration without
trial. Notwithstanding those inquiries,
neither the AOPC, nor any other agent of
AOPC, including the AOPC’s local ADA
coordinator in Fayette County, acted to
provide Mr. Geness with his right to be
brought to trial on the charges he faced.
• D u r i ng t he p er iod of M r. G ene s s’s
incarceration from in or about November
2006 through in or about December 2015,
the Fayette County court administrator
received from the Fayette County Prison
a daily list of prisoners incarcerated in the
Fayette County Prison. This list included
various information about each incarcerated
individual, including the date the individual
was incarcerated, as well as the minimum
and maximum incarceration dates for each
prisoner.
• Mr. Geness appeared on this list every day.
• The AOPC’s actions are part of an unlawful
pattern and course of conduct intended to
harm Mr. Geness with reckless disregard
and/or deliberate indifference to his rights.

41a
Appendix B
II. Analysis
A.

Mr. Geness continues to plead an ADA claim.

In our February 1, 2019 Memorandum explaining
why we denied the Commonwealth’s motion to dismiss, we
found “Mr. Geness ‘sufficiently pleaded’ a claim under Title
II of the ADA,”4 pleaded “conduct ‘that actually violate[d]
the Fourteenth Amendment,’“5 and properly “amended to
include specific allegations of deliberate indifference.”6 Mr.
Geness repeats the same allegations. He adds the AOPC as
a responsible party. AOPC’s argument of no involvement,
or the more central involvement of the Department of
Human Services, is based on facts requiring discovery
on relative culpability.
The issue is whether the AOPC is immune from this
type of ADA claim.
B. The AOPC, like the Commonwealth, has not
shown a basis for sovereign immunity.
In our February 1, 2019 Memorandum, we found
sovereign immunity poses no bar to Mr. Geness’s claim
against the Commonwealth,7 because “insofar as Title II
4. Geness v. Pennsylvania, 364 F. Supp. 3d 448, 456 (W.D. Pa.
2019) (quoting Geness, 902 F.3d at 361).
5. Id. (alteration in original) (quoting United States v. Georgia,
546 U.S. 151, 159, 126 S. Ct. 877, 163 L. Ed. 2d 650 (2006)).
6. Id.
7. See Geness, 364 F. Supp. 3d at 456.

42a
Appendix B
creates a private cause of action for damages against the
States for conduct that actually violates the Fourteenth
Amendment, Title II validly abrogates state sovereign
immunity.”8 The AOPC nonetheless argues it is entitled
to sovereign immunity even though the Commonwealth
of which it is “an arm” is not shielded by such immunity.9
This argument is unavailing. Mr. Geness plausibly alleges
the AOPC’s conduct violated Title II of the ADA 10 and
the Fourteenth Amendment’s due process protections, so
“Title II validly abrogates state sovereign immunity.”11
The AOPC argues liability cannot attach because it
does “not [have] a duty to micromanage case filings.”12 But
Mr. Geness does not allege the AOPC must act as standby
legal counsel for all Pennsylvania citizens or supplant
the crucial role of Pennsylvania trial or appellate judges.
Mr. Geness instead alleges the AOPC is responsible for
“[e]nsuring accessible and safe courts for all citizens” by
“[e]nsuring that the courts of the Commonwealth comply
with Title II of the Americans with Disabilities Act.”13
8. Georgia, 546 U.S. at 159; see also Tennessee v. Lane, 541 U.S.
509, 533-34, 124 S. Ct. 1978, 158 L. Ed. 2d 820 (2004) (holding “Title
II, as it applies to the class of cases implicating the fundamental right
of access to the courts, constitutes a valid exercise of Congress’ § 5
authority to enforce the guarantees of the Fourteenth Amendment”).
9. ECF Doc. No. 188 at 16 of 33.
10. 42 U.S.C. § 12131 et seq.
11. Georgia, 546 U.S. at 159.
12. Gay v. Pines, 835 A.2d 402, 404 (Pa. Commw. Ct. 2003).
13. ECF Doc. No. 183 at ¶ 7.

43a
Appendix B
Mr. Geness plausibly pleads the AOPC’s failure to
discharge its duties with respect to ADA compliance
substantially — even if not exclusively — caused his
lengthy pretrial detention. Mr. Geness alleges the AOPC
discharges its critical ADA compliance duties by “mak[ing]
regular inquiries of each county’s ADA coordinator with
regard to cases involving criminal defendants who are
pretrial detainees whose cases have not been called
to trial in a timely fashion according to Pennsylvania
law.”14 In Fayette County, Pennsylvania, the deputy court
administrator holds “the role of AOPC ADA coordinator”
and “reports directly to the court administrator.”15
As to his own case, Mr. Geness alleges “the Fayette
County court administrator received from the Fayette
County Prison a daily list of prisoners incarcerated in the
Fayette County Prison,” and Mr. Geness appeared on this
list along with key “information about his incarceration.”16
Mr. Geness alleges the “AOPC repeatedly contacted the
Fayette County court administrator directly to inquire
about [Mr. Geness’s] case and the reasons for [his]
extended incarceration without trial.”17 But “neither the
AOPC, nor any other agent of AOPC, including the AOPC’s
local ADA coordinator in Fayette County, took any action
designed to provide [Mr. Geness] with his right to be
brought to trial on the charges that he faced.”18
14. ECF Doc. No. 183 at ¶ 66.
15. Id. at ¶ 7.
16. Id. at ¶ 69-70.
17. Id. at ¶ 67.
18. Id.

44a
Appendix B
Seemingly looking beyond these plausible allegations,
the AOPC claims as a matter of law it could not have
acted to help Mr. Geness. The Pennsylvania Rules of
Judicial Administration suggest otherwise. Among
numerous duties, these Rules charge the AOPC with
“review[ing] the operation and efficiency of the system and
of all offices related to and serving the system and, when
necessary . . . report[ing] to the Supreme Court or the
Judicial Council with respect thereto”19; “examin[ing] the
state of the dockets and practices and procedures of the
courts and of the magisterial district judges and mak[ing]
recommendations for the expedition of litigation” 20; and
“prepar[ing] educational and training materials for
system and related personnel and to conduct educational
and training sessions.” 21 Mr. Geness plausibly pleads the
AOPC could have helped him by exercising its duty to
monitor the status of dockets and make recommendations
to expedite litigation, ensure ADA compliance at a
systemic level in the courts of the Commonwealth, and
reporting to the Pennsylvania Supreme Court.
We are again guided by our Court of Appeals’ finding
“the[] multiple, protracted, and inexcusable delays in the
handling of [Mr.] Geness’s examinations, transfers, and
motions — resulting in nearly a decade of imprisonment
and civil commitment before a hearing was finally held on
his habeas petition — are more than sufficient to state a
19. Pa.R.J.A. No. 505(1).
20. Pa.R.J.A. No. 505(6).
21. Pa.R.J.A. No. 505(12).

45a
Appendix B
claim under the ADA,” 22 and “[t]hese same circumstances
are also sufficient to sustain [Mr.] Geness’s claim that
he was depr[ived] ... of normal benefits of criminal
procedure and due process of law, both as to his protracted
incarceration without prompt transfer to a mental health
facility, and his protracted institutionalization without a
realistic prospect of trial.” 23
Of course, a developed factual record may show, as a
matter of fact, the AOPC could not have done more. The
question may then be left to our jury. But Mr. Geness’s
claim is plausible and we cannot resolve fact disputes at
this stage. For the same reason we cannot now resolve
22. Geness, 902 F.3d at 362.
23. Id. at 363 (third alteration in original) (internal citation and
quotation marks omitted). Our Court of Appeals’ findings undermine
the AOPC’s reliance on King v. Indiana Supreme Court, in which the
district court in Indiana, as relevant here, dismissed the plaintiff’s
ADA claim against the court administrator because the plaintiff
failed to allege a person or entity aside from the court “took part
in the actual decision to deny his request for an [American Sign
Language] interpreter.” No. 14-01092, 2015 U.S. Dist. LEXIS 58388,
2015 WL 2092848, at *15 (S.D. Ind. May 5, 2015). After the court
later awarded damages to the plaintiff following a bench trial, the
United States Court of Appeals for the Seventh Circuit reversed the
judgment, finding Title II of the ADA “does not abrogate sovereign
immunity” because the “case has no constitutional dimension at all.”
King v. Marion Circuit Court, 868 F.3d 589, 593 (7th Cir. 2017),
cert. denied sub nom. King v. Marion Cty. Circuit Court, 138 S. Ct.
1582, 200 L. Ed. 2d 768 (2018). Here, by contrast, Mr. Geness alleges
the specific involvement of the AOPC in his case and its systemic
failure and our Court of Appeals has already described in detail the
plausibility of Mr. Geness’s constitutional claims.

46a
Appendix B
the AOPC’s argument the Pennsylvania Department of
Human Services is the party solely or more responsible for
Mr. Geness’s harm. The AOPC, however, may pursue this
argument through a cross-claim against the Department
of Human Services.
C.

The AOPC cannot shield itself in quasi-judicial
immunity.

The AOPC also fails to demonstrate quasi-judicial
immunity categorically bars Mr. Geness from proceeding
to discovery. “Quasi-judicial immunity, as one might
guess, evolved out of its well-known namesake, judicial
immunity,” 24 which “is supported by a long-settled
understanding that the independent and impartial exercise
of judgment vital to the judiciary might be impaired by
exposure to potential damages liability.” 25 Because
“[t]he fair administration of justice depends not only on
judges,” 26 “[q]uasi-judicial absolute immunity attaches
when a public official’s role is ‘functionally comparable’
to that of a judge.’“ 27
24. Russell v. Richardson, 905 F.3d 239, 247 (3d Cir. 2018).
25. Antoine v. Byers & Anderson, Inc., 508 U.S. 429, 435, 113
S. Ct. 2167, 124 L. Ed. 2d 391 (1993).
26. Russell, 905 F.3d at 247.
27. Hamilton v. Leavy, 322 F.3d 776, 785 (3d Cir. 2003) (quoting
Butz v. Economou, 438 U.S. 478, 513, 98 S. Ct. 2894, 57 L. Ed. 2d
895 (1978)); see also Dotzel v. Ashbridge, 438 F.3d 320, 325 (3d Cir.
2006) (“As its name suggests, ‘quasi-judicial’ immunity is a doctrine
under which government actors whose acts are relevantly similar to
judging are immune from suit.”).

47a
Appendix B
When considering a claim of quasi-judicial immunity,
our Court of Appeals directs our focus to an official’s
duties rather than mere title. “Regardless of his job title,
if a state official must walk, talk, and act like a judge as
part of his job, then he is as absolutely immune from
lawsuits arising out of that walking, talking, and acting
as are judges who enjoy the title and other formal indicia
of office.” 28 Quasi-judicial immunity also protects “a range
of judicial actors” performing functions integral to the
judicial process. 29
Before we can consider the AOPC’s functions under
this framework, however, we cannot avoid the AOPC’s
failure to clear a more fundamental hurdle to its claim of
quasi-judicial immunity: it is not a public official acting in an
individual capacity. It is not a public official at all. It is an
entity. And courts across the country — including our Court
of Appeals — have routinely declined to extend the “strong
medicine”30 of quasi-judicial and other absolute immunities
to non-persons. Our Court of Appeals’ analysis in Lonzetta
Trucking & Excavating Co. v. Schan 31 is instructive.
In Lonzetta, a civil rights case stemming from a zoning
dispute, our Court of Appeals acknowledged precedent
finding zoning board members “ruling on a zoning permit
28. Dotzel, 438 F.3d at 325.
29. Russell, 905 F.3d at 247.
30. Forrester v. White, 484 U.S. 219, 230, 108 S. Ct. 538, 98 L.
Ed. 2d 555 (1988) (quoting Forrester v. White, 792 F.2d 647, 660 (7th
Cir. 1986) (Posner, J., dissenting)).
31. 144 F. App’x 206 (3d Cir. 2005).

48a
Appendix B
for a particular piece of property are performing a quasijudicial function” for purposes of quasi-judicial immunity.32
But our Court of Appeals clarified an important distinction
applicable here. Although the officials “would be entitled
to absolute immunity in their individual capacities if they
were performing ‘quasi-judicial’ functions[,] . . . the zoning
officials in their official capacities, the Hazle Township
Zoning Board, and the Hazle Township are not entitled to
absolute immunity. The planning board as a governmental
agency has no immunity whatsoever.”33
In Dotzel v. Ashbridge, our Court of Appeals again
recognized quasi-judicial immunity shields only individual
actors “from suit in their individual capacities.”34 In Dotzel,
members of the Board of Supervisors of Salem Township,
Pennsylvania claimed quasi-judicial immunity in a suit
for alleged constitutional violations stemming from their
denial of a permit for a conditional use of a piece of land. 35
Our Court of Appeals held “[t]he Board members here
were acting in a quasi-judicial capacity, and are absolutely
32. Id. at 210; see also Bass v. Attardi, 868 F.2d 45, 51 (3d
Cir. 1989) (“Thus in this case, the suit naming the members of
the Planning Board in their official capacities in effect makes the
Planning Board a defendant. The Planning Board as a governmental
entity has no immunity whatsoever.”).
33. Lonzetta, 144 F. App’x at 211; see also Teed v. Hilltown Twp.,
No. 03-6040, 2004 U.S. Dist. LEXIS 9477, 2004 WL 1149486, at *7
(E.D. Pa. May 20, 2004) (“Governmental entities are not entitled to
quasi-judicial immunity from a suit under § 1983.”).
34. Dotzel, 438 F.3d at 327.
35. Id. at 322-23.

49a
Appendix B
immune from suit in their individual capacities.” 36 Our
Court of Appeals described “zoning disputes” as “among
the most fractious issues faced by municipalities, and the
risk of threats and harassment is great,” and found, among
other things, the township zoning proceedings bear the
“hallmarks of adversarial proceedings.” 37 But our Court
of Appeals limited its finding of quasi-judicial immunity
solely to “[a]ny actions against [the members] in their
individual capacities.” 38 “The remaining substantive
due process claim against the Township and the Board
members in their official capacities,” our Court of Appeals
clarified, “is not affected by our decision in this appeal.”39
Our Court of Appeals is not alone in finding quasijudicial immunity inapplicable to entities — and for
good reason. The United States Court of Appeals for
the Seventh Circuit described “[o]fficial immunities
(judicial, legislative, absolute, qualified, quasi, and so on)
a[s] personal defenses designed to protect the finances
of public officials whose salaries do not compensate them
for the risks of liability under vague and hard-to-foresee
constitutional doctrines,” and “[t]hat justification does not
apply to suits against units of state or local government,
which can tap the public fisc.”40
36. Id. at 327.
37. Id. at 325, 327.
38. Id. at 327.
39. Id. at n.5.
40. Hernandez v. Sheahan, 455 F.3d 772, 776 (7th Cir. 2006),
cert. denied, 552 U.S. 974, 128 S. Ct. 437, 169 L. Ed. 2d 305 (2007);

50a
Appendix B
Although our research primarily yielded cases
discussing official immunity doctrines in the context
of 42 U.S.C. § 1983, the parties do not address how, if
at all, quasi-judicial immunity might apply differently
under Title II of the ADA. We note ADA’ s focus on equal
access to public services would be rendered toothless if
every state agency could derivatively claim quasi-judicial
immunity and avoid its obligation to ensure equal access
to courtroom. Such an expansion of the quasi-judicial
immunity doctrine to entities free to draw from the public
fisc would disregard, and likely perpetuate, what our
Supreme Court in Tennessee v. Lane, described as the
“long history” of “unequal treatment of disabled persons
in the administration of judicial services.”41 We decline
to do so here.
But even if the AOPC’s status as an entity did
not preclude it seeking quasi-judicial immunity, the
AOPC is not entitled to such immunity. As we have
already described, the Pennsylvania Rules of Judicial
Administration detail the AOPC’s various administrative
duties.42 The AOPC lacks authority to exercise judicial
decision-making powers or sit as an adjudicative body.43
see also VanHorn v. Oelschlager, 502 F.3d 775, 779 (8th Cir. 2007)
(finding “[c]ase law from our sister circuits also supports the
conclusion that absolute, quasi-judicial immunity only extends to
claims against defendants sued in their individual — not official —
capacities”).

41. Lane, 541 U.S. at 531.
42. See Pa.R.J.A. No. 505.
43. See Pines, 835 A.2d at 404.

51a
Appendix B
The AOPC does not hear cases or apply precedent.
Nor does it have a duty to “micromanage case filings”
or “prosecute any action on behalf of members of the
general public.”44 The United States Supreme Court has
instructed “[a]dministrative decisions, even though they
may be essential to the very functioning of the courts, have
not similarly been regarded as judicial acts.”45 The AOPC
articulates no compelling explanation of how it is, or why
it must be, “insulat[ed] from political influence.”46 To the
extent Mr. Geness premises liability on the AOPC’s failure
to conduct its duty to monitor and address “system-wide
problems,” the AOPC does not enjoy the broad shield of
quasi-judicial immunity.47 And as we have quoted at length
above, Mr. Geness specifically pleads liability based on the
AOPC’s role in managing ADA compliance.
D.

We already held Mr. Geness’s claims are timely.

We decline to revisit our February 1, 2019 finding Mr.
Geness’s claims are timely. They remain so.
III. Conclusion
The Administrative Office of Pennsylvania Courts
cannot rely upon fact-based arguments of “not me”
44. Id. at 404-05.
45. Forrester v. White, 484 U.S. 219, 228, 108 S. Ct. 538, 98 L.
Ed. 2d 555 (1988).
46. Cleavinger v. Saxner, 474 U.S. 193, 202, 106 S. Ct. 496, 88
L. Ed. 2d 507 (1985).
47. Pines, 835 A.2d at 404.

52a
Appendix B
when Mr. Geness pleads its role in managing access to
courts including through an ADA coordinator in Fayette
County. It has not shown a basis for immunity for systemic
failures in policy-making to ensure ADA compliance. Mr.
Geness’s claims are not time-barred based on the plausible
allegations of a continuing and “connected pattern of
indifference.”48

48. Geness, 364 F. Supp. 3d at 454.

53a
Appendix
C
APPENDIX C — ORDER
DENYING
REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT,
DATED OCTOBER 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2253
CRAIG A. GENESS,
v.
ADMINISTRATIVE OFFICE OF
PENNSYLVANIA COURTS; COMMONWEALTH
OF PENNSYLVANIA; PENNSYLVANIA
DEPARTMENT OF HUMAN SERVICES,
ADMINISTRATIVE OFFICE
OF PENNSYLVANIA COURTS,
Appellant.
D.C. No. 2-16-cv-00876
SUR PETITION FOR REHEARING
Before: SMITH, Chief Judge, McK EE, A MBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges

54a
Appendix C
The petition for rehearing filed by appellee in the
above-entitled case having been submitted to the judges
who participated in the decision of this Court and to all
the other available circuit judges of the circuit in regular
active service, and no judge who concurred in the decision
having asked for rehearing, and a majority of the judges
of the circuit in regular service not having voted for
rehearing, the petition for rehearing by the panel and the
Court en banc, is denied.
BY THE COURT,
s/ L. Felipe Restrepo
Circuit Judge
Date: October 29, 2020
PDB/cc: All Counsel of Record

